<html>
<title> - NOMINATION OF VICE ADMIRAL. KARL L. SCHULTZ, TO BE PROMOTED TO ADMIRAL AND TO BE COMMANDANT,. UNITED STATES COAST GUARD</title>
<body><pre>[Senate Hearing 115-772]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-772

                       NOMINATION OF VICE ADMIRAL
                    KARL L. SCHULTZ, TO BE PROMOTED
                    TO ADMIRAL AND TO BE COMMANDANT,
                       UNITED STATES COAST GUARD

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 17, 2018

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                Available online: http://www.govinfo.gov
                
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-949 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                
                
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER WICKER, Mississippi            BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
JAMES INHOFE, Oklahoma               GARY PETERS, Michigan
MIKE LEE, Utah                       TAMMY BALDWIN, Wisconsin
RON JOHNSON, Wisconsin               TAMMY DUCKWORTH, Illinois
SHELLEY MOORE CAPITO, West Virginia  MAGGIE HASSAN, New Hampshire
CORY GARDNER, Colorado               CATHERINE CORTEZ MASTO, Nevada
TODD YOUNG, Indiana                  JON TESTER, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 17, 2018...................................     1
Statement of Senator Wicker......................................     1
Statement of Senator Nelson......................................     2
Statement of Senator Klobuchar...................................    18
Statement of Senator Hassan......................................    20
Statement of Senator Sullivan....................................    22
Statement of Senator Peters......................................    25
Statement of Senator Lee.........................................    28
Statement of Senator Blumenthal..................................    30
Statement of Senator Baldwin.....................................    32
Statement of Senator Thune.......................................    34
    Letter dated April 10, 2018 to Admiral Paul F. Zukunft, 
      Commandant, U.S. Coast Guard from Dennis Daugaard, 
      Governor, State of South Dakota............................    36
Statement of Senator Cortez Masto................................    37
Statement of Senator Cantwell....................................    39
Statement of Senator Moore Capito................................    40
Statement of Senator Cruz........................................    42

                                Witness

Vice Admiral Karl L. Schultz, to be promoted to Admiral and to be 
  Commandant, United States Coast Guard..........................     3
    Prepared statement...........................................     5
    Biographical information.....................................     9

                                Appendix

Response to written questions submitted to Vice Admiral Karl L. 
  Schultz by:
    Hon. Roger Wicker............................................    47
    Hon. Dan Sullivan............................................    47
    Hon. Jim Inhofe..............................................    49
    Hon. Todd Young..............................................    50
    Hon. Bill Nelson.............................................    50
    Hon. Maria Cantwell..........................................    50
    Hon. Brian Schatz............................................    55
    Hon. Gary Peters.............................................    57
    Hon. Tammy Baldwin...........................................    66
    Hon. Catherine Cortez Masto..................................    67

 
                       NOMINATION OF VICE ADMIRAL.
                    KARL L. SCHULTZ, TO BE PROMOTED
                    TO ADMIRAL AND TO BE COMMANDANT,.
                       UNITED STATES COAST GUARD

                              ----------                              


                        TUESDAY, APRIL 17, 2018

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Roger Wicker, 
presiding.
    Present: Senators Wicker [presiding], Thune, Lee, Heller, 
Cruz, Moore Capito, Sullivan, Nelson, Cantwell, Klobuchar, 
Blumenthal, Baldwin, Peters, Hassan, and Cortez Masto.

            OPENING STATEMENT OF HON. ROGER WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Good morning, one and all. Thank you for 
your attendance and interest today. Today we will consider the 
nomination of Vice Admiral Karl Schultz to be promoted to 
Admiral and to become the 26th Commandant of the U.S. Coast 
Guard.
    The Coast Guard has had a tremendous year by all accounts. 
As our Nation's smallest armed service, it has repeatedly shown 
its value to the American people. The Coast Guard yielded 
record results last year in its mission to combat the flow of 
illegal narcotics by transnational criminal organizations. In 
total, the Coast Guard interdicted more than $6.6 billion worth 
of cocaine and other drugs before they could reach our shores, 
while apprehending more than 600 smugglers for prosecution.
    This past fall, we experienced one of the most catastrophic 
hurricane seasons on record. Hurricane Harvey in Texas, 
Hurricane Irma in the Caribbean and Southeast United States, 
Hurricane Maria in Puerto Rico, and Hurricane Nate along the 
Gulf Coast caused an unprecedented $200 billion in damages. 
This eclipsed the previous record of $159 billion, which we 
experienced in 2005 from Hurricane Katrina.
    And yet for every storm that battered our shores, the Coast 
Guard answered the call, surging personnel from all over the 
country to provide relief to affected communities. The Coast 
Guard estimates that the heroic actions of their men and women 
saved more than 11,000 lives.
    Despite these noteworthy results, there are numerous 
challenges ahead for the service as it continues to take on 
more and more responsibility. We are seeing significant 
increases in vessel traffic in the Arctic as opening waterways 
offer new commercial opportunities for the maritime industry. 
The Coast Guard will be relied upon for search and rescue, 
fisheries management, and environmental enforcement in these 
hazardous waters.
    Currently, the Coast Guard is performing its missions with 
antiquated equipment and aging ships that are in constant 
danger of breaking down. The Coast Guard's sole heavy 
icebreaker, the POLAR STAR, was commissioned in 1967 and is a 
single point of failure for the U.S. presence in the Arctic. 
Other legacy assets, such as the high endurance cutters and the 
inland river tenders are more than 40 and 50 years old.
    The Coast Guard is in the midst of a major recapitalization 
effort. It is Congress' responsibility to assist in this effort 
and to provide the Coast Guard with adequate resources to meet 
increasing demands.
    I am pleased to report that the Senate will finally be 
considering the Coast Guard Authorization Act during this work 
period. Members from both sides of the aisle worked to pass 
this bill through the Committee last June. After more than 10 
months, it is well past time that we move forward with this 
important piece of legislation. This bill would provide the 
Coast Guard with the programmatic authorities necessary to 
address future challenges.
    Vice Admiral Karl Schultz is well qualified to lead the 
Coast Guard during this critical and challenging time. 
Throughout his 35 years of service, he has proven to be a 
trustworthy and capable leader. As the Atlantic Area Commander, 
Vice Admiral Schultz oversees all Coast Guard operations from 
the Rocky Mountains to the Arabian Gulf. He also serves as 
Commander, Defense Force East, where he is responsible for 
providing Coast Guard mission support to the Department of 
Defense and the combatant commanders. His personal awards 
include the Defense Superior Service Medal, four Legions of 
Merit, four Meritorious Service Medals, three Coast Guard 
Commendation Medals, two Coast Guard Achievement Medals, and 
numerous others.
    So, Admiral Schultz, we thank you for testifying today and 
look forward to you continuing to serve our country.
    With that, I turn to our distinguished Ranking Member, 
Senator Nelson, for his opening statement.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    Admiral Schultz will lead the branch of our Armed Forces 
charged with protecting and saving lives at sea, securing our 
ports, and conducting numerous other missions critical to our 
safety and security. It's not only an Armed Force, as given 
military responsibilities, but it uniquely combines with the 
law enforcement function as well. We need to look no further 
than the last hurricane season to see the exceptional work that 
56,000 Active Duty Reserve and civilians, and 31,000 Auxiliary 
volunteers did when the Nation needed them.
    As you have stated, Mr. Chairman, the Admiral serves as the 
Atlantic Area Commander. He led the Coast Guard's response to 
Hurricanes Harvey, Irma, Maria, and Nate.
    And I want to thank you, Admiral, and all of your fellow 
servicemembers for all that you did as we went around after a 
couple of those hurricanes throughout Florida, and then as I 
have been down visiting with your troops in Puerto Rico.
    In addition, the Coast Guard had an incredibly successful 
year in preventing drugs from coming into the country, a 
success attributed to your specially-trained personnel, 
including the Helicopter Interdiction Tactical Squadron and the 
Joint Interagency Task Force South, which both reside in the 
State of Florida. And, Admiral, as you well know, this Friday 
marks the 8th anniversary of the Deepwater Horizon oil spill, 
which took the lives of 11 people. The incident also polluted 
over 1,100 miles of coastline, impacted the marine environment 
and the livelihood and personnel across the Gulf States, and it 
serves as a reminder of the need to protect our waters from oil 
spills. The Coast Guard served as the Federal on-scene 
coordinator for that disaster and is well aware of the cost of 
that mess and the ongoing consequences.
    A lot of people don't realize all that the Coast Guard 
does; this Committee does. When the administration proposed a 
significant budget cut for the Coast Guard's Fiscal Year 2018 
budget, many on this Committee took exception. Ultimately, your 
budget, Admiral, included a $1.7 billion increase over the 
Fiscal Year 2017 enacted level, and that ensures the 
continuation of operations and timely recapitalization of your 
assets. This appropriations level includes funding for the 
first offshore patrol cutter and long lead-time materials for 
the second of 25 planned cutters. And as you know, this cutter, 
which surprisingly is being built in Panama City, Florida--they 
were not expected to be the winning bidder but they won--will 
be the cornerstone of your service's fleet and comprise 70 
percent of the Coast Guard's offshore presence. These cutters 
are replacing cutters that are 25 to 50 years old. We do our 
best here to make sure the Coast Guard is properly resourced 
and has the tools that it needs to do of all the many, many 
things that we ask of it, and this includes the expeditious 
passing of the Coast Guard Authorization Act.
    The OMB won't let you tell us what resources you really 
need, Admiral, but we're usually able to figure out and provide 
them to you anyway. You've got a big job, and I believe you're 
going to handle it very well.
    Admiral, good luck, and we're looking forward to having you 
as our next Commandant.
    Senator Wicker. Thank you, Senator Nelson, for that very 
insightful opening statement.
    Admiral Schultz, we're delighted to have you. Please 
proceed with your verbal statement, and feel free to introduce 
any family members you might have present in the room.

           STATEMENT OF VICE ADMIRAL KARL L. SCHULTZ,

        TO BE PROMOTED TO ADMIRAL AND TO BE COMMANDANT,

                   UNITED STATES COAST GUARD

    Admiral Schultz. Good morning, Chairman Wicker, Ranking 
Member Nelson, and distinguished members of the Committee and 
Subcommittee. I request that my written statement be submitted 
for the record.
    I'm honored to appear before you today and humbled to have 
the confidence of President Trump and Secretary Nielsen with 
their nomination to serve as the 26th Commandant of the United 
States Coast Guard. I'm blessed to have my wife of almost 29 
years, Dawn Marie, sitting behind me to share this important 
day.
    I'm also grateful to our Commandant, Admiral Paul Zukunft, 
who served the Nation with the highest level of distinction 
these past 4 decades, and more specifically for these--for his 
steadfast, insightful leadership leading the world's best Coast 
Guard these past 4 years.
    With a focus on being ready, relevant, and responsive, if 
confirmed, I will ensure that your United States Coast Guard 
continues to proudly serve our great Nation.
    For nearly 35 years, I've dedicated my life to serving 
America in the Coast Guard. I have reportedly and repeatedly 
seen firsthand the value the Coast Guard provides to our 
Nation. This past fall, I witnessed the adaptability of our 
service and the decided bias for action of our extraordinary 
workforce during the Coast Guard's response to Hurricanes 
Harvey, Irma, Maria, and Nate. During these operations, our 
coastguardsmen's tireless and heroic efforts led to the rescue 
of 11,300 lives and restored our vital ports and waterways as 
key drivers of our national economy.
    If confirmed, the top priority to be to focus on our 
service readiness. At our core, the Coast Guard's most valuable 
asset is our 56,000 Active Duty, Reserve, and civilian members. 
These adaptive and agile professional men and women stand the 
watch each and every day. For the service to be ready, our 
coastguardsmen must have the right knowledge, skills, and 
abilities to successfully execute our challenging missions. 
Equally important, our men and women must represent the 
American public we serve. Diversity breeds new ideas, 
inclusion, and a stronger team. Quite simply, it fosters 
service readiness.
    In addition to our proficient and diverse workforce, our 
service requires modern, interoperable, and multimission assets 
ready to conduct operations. I thank the administration, 
Congress, and specifically this Committee for all of your 
support of the ongoing modernization of our capital assets, as 
well as the recent supplemental funding to rebuild our shore 
infrastructure following last fall's catastrophic hurricanes.
    However, like the other Armed Forces, the Coast Guard needs 
to rebuild readiness with sound investments in our operation 
and maintenance accounts. While readiness in the other Armed 
Forces has been the focus of recent budgetary increases, your 
Coast Guard has not yet seen much relief in this budget 
category. For these reasons, ensuring our service readiness 
will be a top priority of mine.
    It will also be my priority to leverage our service's 
unparalleled relevance to the challenges facing the Nation. As 
an Armed Force, coastguardsmen integrate with DoD and joint 
task force organizations, and we provide the Department of 
Homeland Security something extremely unique, its only military 
service. Throughout my career, it's been clear that through our 
broad authorities and vast network of international, Federal, 
State, and local, and private industry partnerships across a 
broad spectrum from military operations to humanitarian 
efforts, the Coast Guard brings unique access and expertise to 
the Nation. Your Coast Guard has never been more relevant than 
we are today.
    Finally, if confirmed, it will also be my priority to 
ensure our service remains responsive to the Nation's needs. 
The Coast Guard regularly works with the public and the 
maritime industry as well as with our fellow DHS components and 
across the broader interagency of government, including the 
national intelligence community, to support unity of effort 
across the government.
    Your Coast Guard facilitates the safe transit of $4.6 
trillion million of commerce annually throughout the marine 
transportation system, a system of some 360 seaports, 3,700 
marine terminals, and 25,000 miles of waterways, a system 
highly dependent on a complex globally networked system of 
automated technology always vulnerable to cyber disruption.
    Throughout the Western Hemisphere, the Coast Guard is a key 
component of the Department of Homeland Security's 
comprehensive approach to border security, where we push out 
the borders and respond to maritime threats.
    In Fiscal Year 2017, I proudly note that the Coast Guard 
removed a record 223 metric tons of illegal narcotics, and 
detained and transferred to the Department of Justice 606 
smugglers for Federal prosecution.
    In the Arctic, we are responsive to a region where our 
Nation has substantial political, national security, natural 
resource, and environmental interests. Through our annual 
Arctic Shield seasonal operations and our leadership in 
international Arctic forums, the Coast Guard has the Nation's 
only surface presence in the increasingly accessible high 
latitudes, will continue to secure our Nation's Arctic 
interests.
    In Southwest Asia, a fleet of six Coast Guard patrol boats 
continues to provide vital support to the CENTCOM missions, 
just as they have since 2003. Coast Guard multimission forces 
continue to integrate seamlessly as part of today's joint 
force, supporting DoD combatant commanders across the globe.
    In conclusion, if confirmed, I recognize and am humbled by 
the immense responsibility I will assume as the 26th Commandant 
of the United States Coast Guard, a ready, relevant, and 
responsive Coast Guard. Our inherent bias for action ensures we 
remain ``Semper Paratus,'' always ready to meet the present and 
future challenges of the Nation.
    Chairman Wicker, Ranking Member Nelson, distinguished 
members, I am truly privileged to appear before you today. I 
thank you for the opportunity to testify, and I look forward to 
your questions.
    [The prepared statement and biographical information of 
Admiral Schultz follow:]

 Prepared Statement of VADM Karl L. Schultz, Nominee to be Commandant, 
                            U.S. Coast Guard
Introduction
    Good afternoon, Chairman Thune, Ranking Member Nelson, and 
distinguished members of the Committee. It is an honor and a privilege 
to appear before you today. I am humbled by the opportunity and 
grateful for the confidence of President Trump and Secretary Nielsen in 
nominating me to be the 26th Commandant of the United States Coast 
Guard. I would also like to thank Admiral Paul Zukunft, our Commandant, 
for entrusting me to serve as the Atlantic Area Commander, where I am 
responsible for the execution of Coast Guard missions from the Rocky 
Mountains to the Arabian Gulf.
    In my nearly 35 years as a Coast Guardsman, I have had the 
privilege of serving alongside a remarkable team of dedicated public 
servants. This was reinforced last summer as I led the Coast Guard's 
response efforts to hurricanes Harvey, Irma, Maria, and Nate. I remain 
humbled by the dedication and devotion to duty of the exceptional Coast 
Guard men and women who executed our response to these disasters. Their 
tireless efforts and heroics during back-to-back storms led to the 
rescue of 11,300 people, a staggering number considering that on 
average the Coast Guard saves 3,600 lives a year.
    My resume reflects the experiences of a leader with a clear bias 
for action and the keen ability to recognize and accept risk when and 
where warranted to accomplish the mission. I have developed strategies 
and Service-level policies to address critical issues; I have worked 
with the Administration and Congress to obtain the resources to bring 
these policies to fruition; and, I bring a strong understanding of how 
to best utilize and leverage the Coast Guard's broad authorities and 
robust capabilities. If confirmed, I will ensure the Coast Guard 
optimally supports DHS, and continues to provide exceptional value to 
our Nation.
Overview of the Coast Guard
    America's security, prosperity, and global influence are 
inextricably linked to the maritime domain. Your Coast Guard's agility 
and adaptability in identifying and responding to emerging risks, 
challenges, and opportunities in this domain are essential to both 
National and Homeland Security, as well to the economic prosperity of 
our Nation. Our reputation remains strong. Our total workforce--active 
duty, reserve, civilian and auxiliary volunteers--highly capable. And, 
our Nation's demand for Coast Guard services has never been higher.
    As the world's premier, multi-mission maritime service, the Coast 
Guard offers unique and enduring value to the Nation. We are at all 
times a U.S. Armed Force, to include being an integral part of the 
modern Joint Force \1\ and a force multiplier for DoD, a Federal law 
enforcement agency, a member of the National Intelligence Community, a 
regulatory agency, and a first responder. There is no other agency with 
such a broad array of authorities and capabilities. Positioning the 
Coast Guard within DHS allows our Service to utilize these attributes 
to support DHS in securing borders, combating transnational criminal 
organizations (TCO), and safeguarding and enabling the flow of commerce 
on America's waterways.
---------------------------------------------------------------------------
    \1\ In addition to the Coast Guard's status as an Armed Force (10 
U.S.C. Sec. 101), see also Memorandum of Agreement Between the 
Department of Defense and the Department of Homeland Security on the 
Use of Coast Guard Capabilities and Resources in Support of the 
National Military Strategy, 02 May 2008, as amended 18 May 2010.
---------------------------------------------------------------------------
    We are also the Nation's ``maritime first responder.'' Our bias for 
action and ability to rapidly surge resources in response to emerging 
threats, as most recently demonstrated during last fall's devastating 
hurricane season, are hallmark traits of our Service. The Coast Guard 
also performs a multitude of other vital maritime missions including 
search and rescue; safeguarding and facilitating maritime commerce; 
protecting against and preparing to respond to maritime acts of 
terrorism; interdicting drug and migrant smugglers; enforcing fisheries 
laws; responding to oil and hazardous material spills; maintaining aids 
to navigation; screening commercial ships and crews entering U.S. 
ports; inspecting U.S.-flagged vessels; examining cargo containers; 
investigating marine accidents; training international partners; 
credentialing merchant mariners; domestic and international ice 
breaking; and, supporting defense operations.
    These critical functions help keep our Nation safe and secure, and 
strengthen the foundation of a vibrant global maritime economy. On an 
average day the Coast Guard conducts 44 search and rescue cases, saves 
12 lives, assists 60 people in distress, seizes 1,221 pounds of 
cocaine, conducts 48 waterborne patrols in support of critical maritime 
infrastructure, interdicts seven undocumented migrants, conducts 107 
marine inspections, and facilitates the maritime movement of $12.6 
billion in goods and commodities.
    I commit to you that your Coast Guard will continue to fulfill 
these responsibilities with honor, integrity, and a commitment to 
excellence.
Unity of Effort
    The Coast Guard enjoys the strong support of the Secretary of the 
Department of Homeland Security, Secretary Kirstjen Nielsen--and we 
extensively collaborate with other DHS components, furthering ``unity 
of effort'' within the Department against its five enduring missions:

  <bullet> Preventing terrorism and enhancing security;

  <bullet> Securing and managing our borders;

  <bullet> Enforcing and administering our immigration laws;

  <bullet> Safeguarding and securing cyberspace; and,

  <bullet> Ensuring resilience to disasters.

    As Commandant, I will remain fully committed to these missions, as 
well as to the Department's focus to mature and strengthen the Nation's 
homeland security enterprise. While currently the Coast Guard's 
Atlantic Area Commander, I am also the Director of DHS Joint Task 
Force--East, a role which exists to enhance unity of effort across the 
Department's multiple components, and to create and optimize linkages 
within DoD and the broader interagency community.
    I intend to continue working tirelessly in the pursuit of 
excellence in each of the aforementioned DHS missions, and to working 
hand-in-hand with the other DHS components, as well as with federal, 
state, and local partners.
Sustaining a READY_RELEVANT_RESPONSIVE 21st Century Coast Guard
    The maritime operating environment is increasingly dynamic and 
complex. Yet under Budget Control Act (BCA) levels of funding, the 
Coast Guard has been consistently funded below the BCA level within our 
``Operations and Support'' accounts. This has caused our Service to 
lose purchasing power--almost 10 percent--which erodes readiness. If 
confirmed, Maintaining Service Readiness will be a top priority.
    At the core of Service Readiness is our most valuable asset, our 
highly professional and dedicated people. Coast Guard women and men are 
tirelessly standing the watch across the Nation. The Coast Guard must 
remain focused and committed to safeguarding and sharpening the skills 
of our 56,700 members (42,000 Active Duty; 6,200 Reservists; and 8,500 
civilians). These great Americans, along with the Auxiliary--our 
volunteer arm, enable frontline success across the wide spectrum of 
missions we perform. Indeed, human capital requirements are critical to 
successful mission execution. Only Coast Guard women and men with the 
right knowledge, skills, and abilities can successfully execute our 
challenging maritime missions. Our human resources, and human capital 
functions, must be treated as key enablers to service readiness and 
mission execution.
    The Coast Guard workforce has limited capacity to respond to 
prolonged and sequential events. While well-positioned for immediate 
and effective first response, with only 42,000 Active Duty and 6,200 
Reservists, sustained contingency operations and the ability to hand-
off responsibilities once a crisis has stabilized must remain a primary 
consideration for Coast Guard commanders responding to either man-made 
or natural disasters.
    We ask a lot of our people and to keep them sharp, effective, and 
READY to lead, we owe them the requisite training and resources. And we 
must train and operate in a climate and culture befitting of our 
Nation's trust and confidence. To this end, I am fully committed to 
helping the Service better represent the diverse American public we 
serve. Diversity breeds new ideas, it breeds inclusion, and it fosters 
a stronger ethos critical to mission success.
    Maintaining a modern and diverse workforce also requires state-of 
the-art, interoperable, and multi-mission assets. The Coast Guard 
continues to benefit from the strong support from both the 
Administration and the Congress to recapitalize our major assets. While 
these efforts are vital to modernizing our fleet of ships and aircraft, 
we must also ensure we have sufficient resources to operate and 
maintain them. The increased sophistication and capabilities of our new 
platforms make them considerably more expensive to maintain and 
operate. And as the historic hurricane season of 2017 made clear to us, 
surge operations accelerate wear and tear on equipment, and erode our 
future readiness. Hurricane damage to many of our Coast Guard 
facilities also made it clear that we must continue making our 
facilities more storm-resilient and survivable.
    I thank the Administration, this Committee, and the 115th Congress 
for the $835 million in supplemental funding to address Coast Guard 
response costs, and to rebuild our damaged infrastructure to modern 
resiliency standards.
    I especially thank this Committee for its personal commitment to 
our workforce, their families, our assets, the housing they live in, 
and the facilities they work aboard and operate from. I look forward to 
working with each of you to continuously improve the Service's 
Readiness.
    In terms of both National and Homeland Security, as well as with 
enabling economic prosperity, the work of the modern Coast Guard has 
never been more RELEVANT than it is today. It has been clear throughout 
my years of service that the mutual benefit of the Coast Guard 
partnering with others, and others with the Coast Guard, is the ability 
to address challenges that alone could not be overcome. When we work 
together, it is resoundingly evident the Coast Guard can address 
challenges like few others. Going forward, we must continue to hone our 
robust network of joint service, international, federal, state, local, 
tribal, and territorial partnerships, while maintaining transparency 
with stakeholders in the private sector to facilitate a whole-of-
government approach to protect and defend our Nation.
    The Coast Guard provides DHS something extremely unique--its only 
military service. As an Armed Force, Coast Guard women and men are 
frequently integrated with DoD service partners in Joint Task Force 
organizations,. We support maritime interception operations, port 
security and defense operations, theater security cooperation, rotary 
wing air intercept operations, and maritime operational threat response 
options.
    As the former DoD U.S. Southern Command (SOUTHCOM) Director of 
Operations, I understand how DoD plans and executes its missions. At 
Atlantic Area I leverage that knowledge frequently as I work with five 
of the six Combatant Commanders. I engage with SOUTHCOM against 
transnational criminal organizations; U.S. Central Command (CENTCOM) 
for maritime security in the Arabian Gulf; U.S. Africa Command 
(AFRICOM) and U.S. European Command (EUCOM) for Partner Nation Capacity 
Building; and, U.S. Northern Command (NORTHCOM) where we collaborate to 
protect the maritime domain.
    The following examples demonstrate various types of Coast Guard 
support provided to the Combatant Commanders this past Fiscal Year 
alone:

  <bullet> Coast Guard Patrol Forces Southwest Asia (PATFORSWA) 
        provided near-continuous effective presence and maritime 
        security support to CENTCOM's theater support cooperation 
        mission throughout the Arabian Gulf.

  <bullet> Tactical Law Enforcement Teams onboard U.S. Navy and foreign 
        Partner Nation vessels maximized available assets to conduct 
        intercept and interdiction operations, whether along primary 
        narcotics transshipment routes in the Eastern Pacific and 
        Caribbean Sea, or in support of protecting critical fish stocks 
        off the coast of Africa or in the Western Pacific.

  <bullet> National Capital Region Air Defense Facility crews 
        maintained a 100 percent scramble rate and responded to over 
        175 active air defense missions, including nine launches for 
        reported Unmanned Aircraft Systems within the Washington, D.C. 
        Restricted Flight Zone.

    Beyond our Joint Armed Service duties, the Coast Guard routinely 
works with DHS components and other interagency partners, including the 
National Intelligence Community, as well as international organizations 
and other regulatory authorities to be RESPONSIVE to the maritime needs 
of the Nation.
    The Coast Guard leverages the Maritime Operational Threat Response 
(MOTR) protocols, memoranda of agreement, bilateral agreements and 
treaties, combined operating guidelines, and DHS policies to instill 
unity of effort in planning and execution of all of our maritime safety 
and security operations. Of note, we also emphasize and demonstrate 
proficiency in the Incident Command System (ICS), the universal 
language of first responders across the Nation, which is critical to 
unified operations during crises.
    In so many ways, the Coast Guard cooperates and supports the 
interagency at all levels of government to integrate seamlessly during 
national defense, national security, and disaster response operations--
the Coast Guard is RESPONSIVE, and I thank the Administration, the 
Congress, and particularly this Committee for trusting the Coast Guard 
to most effectively serve our Nation.
Moving Forward
    The Coast Guard will continue to act with strategic intent and 
focus our limited resources to maximize the service we provide to the 
Nation.
    As a Nation, we must continue to confront the rise of adaptive TCOs 
because if left unchecked, these networks will quickly erode maritime 
governance, the rule of law, and regional stability. As a frontline 
sentinel of DHS's comprehensive approach to border security, the Coast 
Guard is a key enabler of combatting such organizations, and is best 
positioned to push out our maritime borders and remove large scale 
quantities of illicit commodities where they are most vulnerable--at 
sea. I am proud to note that this past Fiscal Year (2017), the Coast 
Guard removed over 223 metric tons of illegal narcotics and detained 
and transferred 606 smugglers for U.S. criminal prosecution. Through 
unity of effort, we will continue to combat TCOs, secure our borders, 
and safeguard commerce.
    Similar to Secretary Nielsen, and Admiral Zukunft, I consider Cyber 
Security to be one of the most serious, and immediate, economic and 
national security challenges confronting our Nation. With 360 seaports 
and 3,700 marine terminals facilitating $4.6 trillion in annual 
commerce, our Nation is critically dependent on a safe, secure, and 
efficient Marine Transportation System (MTS). Our MTS in turn is highly 
dependent on a complex, globally networked system of automated 
technology. Thus, we will continue to internally and externally defend 
our cyber networks, enable operations, and demonstrate leadership in 
the protection of critical infrastructure.
    Importantly, the United States has been an Arctic Nation since 
1867, when it purchased Alaska for $7.2 million. We maintain 
substantial political, national security, natural resource, 
environmental, and other interests in the Arctic, and this remote 
region is rapidly becoming more accessible. Other Arctic and non-Arctic 
nations are laying claims and exploring its vastness. Through our 
annual Arctic Shield operations, and with unity of effort, we will 
continue to improve awareness, modernize governance, and broaden 
partnerships in the high latitudes. Ultimately, we must preserve our 
national sovereign rights in the Arctic through a variety of means, 
including the surface presence enabled by Coast Guard cutters ensuring 
access, security, and the ability to respond in the High Latitudes.
Conclusion
    I offer my sincere appreciation and gratitude to Admiral Paul 
Zukunft, our 25th Commandant, who has served the Coast Guard with the 
highest distinction for over four decades. His inspirational leadership 
has set our Service on the right path for enduring success. Admiral 
Charles Michel, our Vice Commandant, has been an equally capable and 
dedicated public servant these past 33 years!
    As Admiral Zukunft noted in his testimony before you in 2014, ``The 
Coast Guard will succeed, as it has for over two centuries, because of 
our skilled, courageous, and dedicated workforce.'' I whole-heartedly 
concur, and am fully committed to both the professional and personal 
well-being and development of this extraordinary workforce, and 
committed to supporting their families as well. With a focus on being 
READY, RELEVANT, and RESPONSIVE, these topnotch Coast Guard men and 
women will embody our Core Values of ``Honor, Respect, and Devotion to 
Duty'' while continuing to serve our great Nation with distinction.
    If confirmed, I look forward to working with the Administration and 
the Congress, including this Committee, to meet these and the future 
challenges of our Service--your United States Coast Guard.
    Thank you for the opportunity to testify today. I look forward to 
your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Karl Leo 
Schultz.
    2. Position to which nominated: Commandant, U.S. Coast Guard--
Admiral (0-10).
    3. Date of Nomination: 08 March 2018.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: Coast Guard Atlantic Area, 431 Crawford Street, 
        Portsmouth, VA 23704.

    5. Date and Place of Birth: 14 June 1961; Hartford, Connecticut.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Dawn Marie Schultz; stay-at-home mother; Children: 
        Kelsey Elisabeth Schultz, 24; Lindsey Marie Schultz, 24; 
        Annaliese Nicole Schultz, 20; Eric Karl Schultz, 19.

    7. List all college and graduate degrees. Provide year and school 
attended.

        1979-1983: U.S. Coast Guard Academy; Bachelor of Science--Civil 
        Engineering.

        1991-1992: University of Connecticut; Master of Arts in Public 
        Administration.

        2005-2006: Harvard University, Kennedy School of Gov't; Nat'l 
        Security Fellow.

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        1983 to present: Commissioned Officer; United States Coast 
        Guard.

        Management Level Positions:

        1985-1987: Executive Officer, United States Coast Guard Cutter 
        PETREL.

        1989-1991: Commanding Officer, United States Coast Guard Cutter 
        FARALLON.

        1996-1999: Commanding Officer, United States Coast Guard Cutter 
        ACACIA.

        2003-2005: Commanding Officer, United States Coast Guard Cutter 
        VENTUROUS.

        2006-2008: Commander, Coast Guard Sector Miami, Florida: 
        Captain of the Port; Federal Maritime Security Coordinator; 
        Search and Rescue Mission Coordinator; Federal On-scene 
        Coordinator; and Officer-in-Charge Marine Inspection.

        2008-2010: Chief, Coast Guard Congressional and Governmental 
        Affairs Division.

        2010-2012: Director, Governmental and Public Affairs (CG-092).

        2012-2014: Commander, Eleventh Coast Guard District.

        2014-2016: Director of Operations, U.S. SOUTHERN Command.

        2016 to present: Commander, Coast Guard Atlantic Area/Director 
        DHS Joint Task Force-East.

        Non-managerial Level Positions:

        1987-1989: Command Center Duty Officer, Seventh Coast Guard 
        District, Miami, FL.

        1993-1996: Officer Personnel Management Division, Coast Guard 
        Personnel Command.

        1999-2000: Department of State, Coast Guard Liaison Officer to 
        the Bureau of International Narcotics and Law Enforcement 
        Affairs (INL).

        2000-2003: Congressional Liaison Officer, United States House 
        of Representatives.

    9. Attach a copy of your resume.
    My official Coast Guard Resume is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years. None.
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    Family membership to the West Broward County (Florida) YMCA Fitness 
Center/Youth Sports/Recreational (2006-2010 and 2014 to present). 
Family membership to the Novato (California) YMCA (2012-2014). No 
restrictions on membership on the basis of sex, race, color, religion, 
national origin, age or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    Pi Alpha Alpha, Nat'l Honor Society--Public Affairs & 
Administration (not-active)
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed. None.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

  (a)  02 November 2017, as Commander, Atlantic Area before the 
        Committee on Transportation and Infrastructure of the House of 
        Representatives. Subject of the hearing was ``Emergency 
        Response and Recovery: Central Takeaways from the Unprecedented 
        2017 Hurricane Season.''

  (b)  04 April 2017 as Director, Joint Task Farce-East (JTF-E) before 
        the Border and Maritime Security Subcommittee of the House 
        Committee on Homeland Security. Subject of the hearing was 
        ``Defeating a Sophisticated and Dangerous Adversary: Are the 
        New Border Security Task Forces the Right Approach?''

  (c)  16 June 2015) as Director of Operations U.S. SOUTHERN Command 
        before the Coast Guard and Maritime Transportation Subcommittee 
        of the House Transportation and Infrastructure Committee. 
        Subject of hearing was ``Western Hemisphere Drug Interdiction 
        Efforts.''

  (d)  26 November 2007, as Commander, Coast Guard Sector Miami, 
        Florida on Maritime Border Security'' before the House of 
        Representatives Committee on Homeland Security (CHS), 
        Subcommittee on Border, Maritime and Global Counter-Terrorism. 
        This was a Field Hearing held at the Miami City Hall in Coconut 
        Grove, Florida.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    For the past 35 years I have served as a commissioned Coast Guard 
officer in a broad range of challenging operational and staff 
assignments, including external liaison positions at the Department of 
State and on Capitol Hill, and in a DoD Joint Service billet at U.S. 
SOUTHERN Command in Miami, Florida where I served for two years as the 
Director of Operations (J-3). In my current assignment as Atlantic Area 
Commander for the past 20 months, I've been privileged to oversee all 
Coast Guard operations east of the Rocky Mountains to the Arabian Gulf, 
and lead about two-thirds of all frontlinc Coast Guard operators. While 
at Atlantic Area, I have concurrently served as the Director of the 
Department of Homeland Security's (DHS) Joint Task Force--East (JTF-E), 
tasked to enhance the coordination and synchronization of DHS cross-
component operations and investigations within our vast and 
predominantly maritime joint operating area.
    The Service has also provided me with enriching academic 
opportunities such as obtaining a Master's Degree in Public 
Administration, and completing a one year National Security Fellowship 
at Harvard University's Kennedy School of Government. I believe the 
diversity of my aforementioned professional experiences, and a proven 
track record of performance within the Coast Guard, interagency, and 
the joint service environments, position me well for continued service 
as a senior Coast Guard leader. I have been nominated to serve as the 
26th Commandant of the United States Coast Guard and I can think of no 
higher calling to serve the nation, the Department of Homeland 
Security, and the men and women that comprise the Service's active 
duty, Reserve, civilian and Auxiliary (volunteer) ranks. While humbled 
and honored beyond words by the President's nomination, I am confident 
in my readiness to serve in this demanding position and to best 
represent the interests of the nation, our Coast Guard, and the men 
women I will be entrusted to lead and have the privilege to serve 
alongside of.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    As a career commissioned officer in our Nation's Armed Services, 
and as a Federal Government employee, I hold myself and my organization 
wholly accountable for being responsible stewards of the public trust, 
including all fiscal resources, assets and equipment, and for the 
associated supervisory responsibility for my organization's 
subordinates. As a former Congressional Liaison to the House of 
Representatives, former Chief of Coast Guard Congressional and 
Governmental Affairs, and the flag officer Director of the Coast 
Guard's Governmental and Public Affairs programs, I am intimately 
familiar with the critical importance of a Federal agency such as the 
Coast Guard strictly adhering to the highest standards of proper 
management, fiduciary responsibility, accounting controls and 
transparent behavior. I believe my record of responsibly leading 
organizations from the regional, through theater level, including 
within the Interagency and Joint domains, demonstrates a strong and 
steady commitment to proper management and accounting controls.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    In a department dedicated to the security of our Homeland, the 
interdependence of the legitimate flow of commerce and security is 
clear. As our partners in the Department of Defense address a multitude 
of national security challenges overseas, the Coast Guard must continue 
to combat the full spectrum of transnational crime in the Western 
Hemisphere, including the transshipment of illicit narcotics. The Coast 
Guard must continue to enhance our domestic and international 
partnerships, where possible, pushing out our borders and enabling 
mutual security opportunities. The Service must continue to enable 
economic prosperity by ensuring the security of the maritime 
transportation system (MTS) whereon 95 percent of our Nation's commerce 
occurs, facilitating S4.6 trillion in annual economic activity.
    Protecting the homeland in an environment where trans-regional 
terrorist organizations and violent extremists are increasingly more 
prevalent will remain a daunting challenge for our Nation's security 
forces, including the United States Coast Guard--the lead Federal 
agency for maritime safety and security. Under that umbrella falls the 
large task of combatting transnational criminal organizations whose 
activities threaten the stability and legitimacy of partner nation 
governments in the Western Hemisphere, fuel extreme violence, and seed 
corruption. While the illicit and violent activities that transnationa1 
criminals engage in typically occur far from our homeland, the effects 
and impacts of those activities manifest themselves at our borders and 
in our American cities and neighborhoods. More than 50,000 Americans 
died of drug related causes last year alone, and tens of thousands of 
unaccompanied children are sent by their families on the long and 
arduous journey to escape the violence and lack of opportunity found in 
their Central American home towns and cities in the Northern Triangle 
where the homicide rates are up to 20 times that found in America. 
These transnational criminals exploit highly sophisticated smuggling 
networks to facilitate the movement of their illicit cargoes and 
activities from south to north, including drug and migrant smuggling, 
as well as the trafficking of persons. Along these same corridors or 
networks, bulk cash and weapons move in the reverse direction, 
completing the cycle of illicit activity. Protecting the homeland from 
the aforementioned threats, as well as from homegrown violent 
extremists, will remain a top priority mission and challenge for the 
Department of Homeland Security and the United States Coast Guard.
    Secondly, the Coast Guard is on solid footing with stable 
requirements for recapitalizing our aging assets into a capable force 
to execute our broad portfolio of homeland security and other legacy 
missions. Predictable/stable funding, at the appropriate levels, is 
essential to maintaining momentum. Near term investments must be viewed 
as providing continuity for essential service delivery. Sustained 
momentum on this front will require open and honest dialogue, and 
likely hard choices--this is the nature of our government. A clear 
focus will be required to restore the service's declining readiness and 
significant lost buying power, the result of multiple years of funding 
at/or below Budget Control Act (BCA) caps for non defense discretionary 
spending, by making timely and necessary investments in key assets, 
infrastructure, and our Coast Guard workforce. Additionally, the Coast 
Guard faces evolving and uncertain threats in the Cyber Space domain, 
as well as increasing levels of activity in an expanding Arctic region 
where the service has statutory responsibilities related to the safety, 
security and stewardship of those operating in the region and the 
envirorunent itself. As the fifth Armed Service, the Coast Guard must 
strive to enjoin our readiness funding needs to the Administration's 
ongoing efforts to rebuild the Nation's Armed Forces. It is paramount 
that the Coast Guard remain efficient and effective fiscal stewards of 
taxpayer monies and continue to annually earn a clean financial audit. 
The increasing costs we face servicing the interest on our $20 trillion 
Federal debt, and the ongoing struggle as a nation to reach any kind of 
an agreement or shared definition regarding the appropriate size and 
nature of the services and programs our government should provide, pose 
a not too distant existential fiscal threat to operating agencies like 
the Coast Guard.
    Thirdly, the Coast Guard will need to be mindful of managing its 
human capital, of remaining an ``employer of choice'' amidst a changing 
American workforce at a time when a new military retirement plan--the 
Blended Retirement System--was introduced at the start of this calendar 
year, and high tech competitive industries are seeking the same talent 
we need in our ranks. As a service, the Coast Guard will need to 
continue to demonstrate the value we place on our people, value that is 
measured in terms of trust, opportunity, professional growth and 
satisfaction. We need to draw the best talent possible from across 
America to fill our ranks--officer, enlisted and civilian. While our 
workforce is remarkably capable and productive, we have the opportunity 
and obligation for this workforce to be more representative of the 
citizens we serve, and the Coast Guard must continue to raise awareness 
of career opportunities in our service to under represented groups and 
inspire inclusiveness. Lastly, we need to provide our people with the 
training, educational benefits, health care and family support programs 
that make them want to stay attached to our brand.
                   b. potential conflicts of interest
    l, Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Please see my PFDR.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position: to which you have been nominated. None.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    My official Coast Guard duties have from time to time required me 
to make recommendations to Coast Guard officials regarding Coast Guard 
policy and Coast Guard related legislation.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I will obtain advice from a Coast Guard ethics official and follow 
that advice.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any cement, administrative 
agency, professional association, disciplinary committee, or other 
professional group'? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement autho1ity of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendre) of any criminal violation other than a minor traffic 
offense'? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
    7. If you ever served as a general court-martial convening 
authority involving an offense involving sexual misconduct or assault, 
have you ever disapproved the findings of a court-martial related to 
the offense(s) or reduced the sentence adjudged by a court martial, 
other than in connection with a pre-trial agreement? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department or agency does whatever it 
can to protect congressional witnesses and whistle blowers from 
reprisal for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                 Resume of Vice Admiral Karl L. Schultz
 Commander, Coast Guard Atlantic Area; Commander, Coast Guard Defense 
            Force East; Director, DHS Joint Task Force--East
Vice Admiral Schultz assumed the duties of Commander, Coast Guard 
Atlantic Area on August 4, 2016 . He serves as the operational 
commander for all Coast Guard missions from the Rocky Mountains to the 
Arabian Gulf, spanning across five Coast Guard Districts and 40 states. 
In addition to his duties at Atlantic Area, he serves as Commander, 
Coast Guard Defense Force East, which provides Coast Guard mission 
support to the Department of Defense and Combatant Commanders. He 
concurrently serves as Director, DHS Joint Task Force--East, 
responsible for achieving the objectives of the DHS Southern Border and 
Approaches Campaign Plan throughout his Joint Operating Area, which 
covers the Caribbean Ocean and Eastern Pacific Region and Central 
America.

Vice Admiral Schultz reports to the Atlantic Area having recently 
served as Director of Operations (J3), U.S. Southern Command in Doral, 
Florida, where he directed joint service military operations across the 
Caribbean Basin, Central and South America. Prior flag officer 
assignments were Commander, Eleventh Coast Guard District, where he was 
responsible for multi-mission operations from California to Peru, and 
Director of Governmental and Public Affairs at Coast Guard Headquarters 
in Washington, D.C., where he was responsible for external engagement 
with Congress, the media, and inter-governmental entities.

Previous operational assignments include Sector Command in Miami, as 
well as command tours aboard Cutters VENTUROUS, ACACIA and FARALLON. 
Staff assignments include Chief of the Office of Congressional and 
Governmental Affairs; Congressional Liaison Officer to the U.S. House 
of Representatives; Liaison Officer to the U.S. Department of State, 
Bureau for International Narcotics and Law Enforcement Affairs; 
Assignment Officer at the Coast Guard Personnel Command, and Command 
Duty Officer in the Seventh Coast Guard District Operations Center in 
Miami.

Vice Admiral Schultz is a native of East Hartford, Connecticut and a 
1983 Coast Guard Academy graduate, earning a Bachelor of Science degree 
in Civil Engineering. In 1992, he was awarded a Master's Degree in 
Public Administration from the University of Connecticut, and in 2006 
completed a one year National Security Fellowship at Harvard 
University's Kennedy School of Government.

His personal awards include the Defense Superior Service Medal, four 
Legions of Merit, four Meritorious Service Medals, three Coast Guard 
Commendation medals, two Coast Guard Achievement Medals, and various 
other personal and unit awards.

Current Assignment
 
08/2016 to present    Commander, Coast Guard Atlantic Area/Director DHS
                       Joint Task Force--East (JTF-E)
 
Assignment History
06/2014-07/2016       U.S. SOUTHERN COMMAND, Director of Operations (J-
                       3)
07/2012-06/2014       Commander, Coast Guard District Eleven
01/2010-06/2012       Director, Governmental and Public Affairs (CG-092)
09/2009-12/2009       Acting Director, Governmental and Public Affairs
                       (CG-092) and Chief: Congressional and
                       Governmental Affairs (CG0921)
07/2008-08/2009       Chief, Congressional and Governmental Affairs
                       (CG0921)
07/2006-06/2008       Commander, Coast Guard Sector Miami, FL
08/2005-06/2006       National Security Research Fellow, Harvard
                       University--Kennedy School of Government
07/2003-07/2005       Commanding Officer, USCGC VENTUROUS (WMEC-625)
06/2000-06/2003       Congressional Liaison Officer, U.S. House of
                       Representatives
07/1999-05/2000       Liaison, Department of State, Bureau for
                       International Narcotics and Law Enforcement
                       Affairs (INL)
07/1996-06/1999       Commanding Officer, USCGC ACACIA (WLB-406)
06/1994-06/1996       Assignment Officer, Military Personnel Command
                       (OPM-2)
01/1993-05/1994       Evaluations Branch, Military Personnel Command
                       (OPM-3)
08/1991-12/1992       Duty under Instruction (DUINS)--University of
                       Connecticut
06/1989-07/1991       Commanding Officer, USCGC FARALLON (WPB-1301)
06/1987-05/1989       Rescue Coordination Center Controller/Law
                       Enforcement Duty Officer, Seventh Coast Guard
                       District Command Center, Miami
06/1985-05/l987       Executive Officer, USCGC PETREL (WSES-4)
06/1983-05/1985       Operations Officer, USCGC GENTIAN (WLB-290)
 
Educational Summary
1979-1983             U.S. Coast Guard Academy, Bachelor of Science--
                       Civil Eng.
1991-1992             University of Connecticut, School of Urban and
                       Pub1ic Affairs; Master of Science--Public
                       Administration
2005-2006             1-yr Research Fellowship in National Security
                       Studies--Harvard University, John F, Kennedy
                       School of Government
 
Military Personal Awards and Significant National Recognition or
 Achievement
2016                  Defense Superior Service Medal
2014                  Legion of Merit
2012                  Legion of Merit
2011                  Legion of Merit
2008                  Legion of Merit
2005                  Meritorious Service Medal
2003                  Meritorious Service Medal
2000                  Coast Guard Commendation Medal
1999                  Meritorious Service Medal
1996                  Coast Guard Commendation Medal
1995                  Coast Guard Achievement Medal
1994                  Commandant's Letter of Commendation
1991                  Coast Guard Commendation Medal
1989                  Coast Guard Commendation Medal
1987                  Coast Guard Achievement Medal
 
Significant Current Professional Credentials or Recent Activities: N/A
 


    Senator Wicker. Well, thank you very much. And we certainly 
appreciate your testimony and we appreciate your service.
    Let's talk about national security cutters first, Admiral. 
A 2014 Inspector General report found that the declining 
readiness of the Coast Guard's high endurance cutters continues 
to pose significant challenges to mission performance. During 
his ``State of the Coast Guard'' address last year, Admiral 
Zukunft stated that there were 580 events, drug or migrant 
movements, last year that we were aware of but could not 
target. This is an issue of capacity according to Admiral 
Zukunft. There are seven national security cutters in operation 
today.
    I understand that the national security cutters already in 
service have yielded record results in drug interdiction 
numbers. What capabilities does the national security cutter 
bring to the mission that other assets are not able to meet? 
And understanding that there are other legacy assets that need 
to be modernized as well, what effects would additional 
national security cutters have on your ability to combat drug 
and migrant smuggling threats?
    Admiral Schultz. Mr. Chairman, thank you for the question. 
The national security cutters built at Huntington shipyard are 
truly proving to be incredibly capable assets. They are 
contributors and end users of national security, national 
intelligence. They have had record successes on the front lines 
of the campaign of drugs, illicit drug transshipments out of 
the Indian Ridge into Central America. The National Security 
Cutter JAMES, homeported at our Charleston, South Carolina, 
showed its flexibility and adaptability during this past fall's 
hurricane season, first in the eastern Pacific when we pulled 
back a large number, almost just about all the ships that were 
doing counterdrug patrols to support the Nation's hurricane 
responses. The JAMES remained in the eastern Pacific and 
essentially took over the role of Joint Interagency Task Force 
South, obviously not at the same level of fidelity that JITF 
South could do, but they were able to manage the counterdrug 
mission from the sophisticated capabilities that the JAMES, a 
national cutter, national security cutter, brings to the table.
    Furthermore, the JAMES came through the Panama Canal, and 
we sent her into Puerto Rico following the passage of Maria, 
and the sector command there, that's our command and control 
node, in San Juan, essentially suffered catastrophic damages. 
It took all the capabilities down to zero. The national 
security cutter sailed into the harbor, sat on the anchor in 
San Juan Harbor, and essentially took over the command and 
control capabilities and allowed us to respond to the needs of 
the Commonwealth of Puerto Rico, sir.
    Senator Wicker. I assume you subscribe to the statement of 
the Inspector General about the declining readiness of the 
Coast Guard's high endurance cutters continuing to pose 
significant challenges.
    Admiral Schultz. Senator, the HECs, the high endurance 
cutters--and we have just a couple left--they were declining in 
readiness. Those ships were built in the 1960s, early 1970s. 
The national security cutters are a fantastic replacement for 
that. We appreciate the support of the Congress in the 2018 
Omnibus that provided funding for the tenth and an eleventh 
national security cutter, sir, and we look forward to welcoming 
those ships to the fleet.
    Senator Wicker. Thank you for pointing that out. It must be 
frustrating, Admiral, for the Coast Guard to be aware of as 
many as 580 events going on out there that you're simply not 
able to respond to.
    Admiral Schultz. Well, Senator, down in the Joint 
Interagency Task Force joint operating area, on average, we 
have awareness of about three-quarters of the drug events that 
transpire on a day-to-day basis. We have the capacity to action 
target about a third of those, 25 to 33 percent of those. Of 
those cases that we have the resources to go after, we have a 
very high success rate, somewhere north of 80 percent.
    Is it frustrating? It's a choice. Capacity is always a 
choice for the Nation, sir. With more capacity, we're able to 
take a bigger bite out of that threat. But our men and women 
are fully engaged, sir, and welcome the challenge of that 
mission. And I think we've proven our success on that front.
    Senator Wicker. I'm going to take a second round since I 
have to preside, and I'm going to yield back my time right now 
and let other members ask questions, sir.
    Admiral Schultz. Thank you, Chairman.
    Senator Wicker. Senator Nelson.
    Senator Nelson. And, likewise, Mr. Chairman. I'll just ask 
one question so we can get the rest of the Committee in it.
    Admiral Zukunft's ``State of the Coast Guard'' address said 
that the Coast Guard needs at least a 5 percent annualized 
increase in its budget for maintenance, and at least $2 billion 
additional to make necessary purchases to modernize the fleet. 
In your testimony, you stated that increased sophistication and 
capabilities of the Coast Guard's new platforms are 
considerably more expensive to maintain and operate. Does the 
administration's budget for 2019, does that provide the Coast 
Guard with the funding it needs to do its job?
    Admiral Schultz. Ranking Member Nelson, thank you for the 
question, sir. Sir, the 2019 budget for the Coast Guard under 
the revised or elevated caps provides the Coast Guard a 
tremendous level of support. It maintains momentum on our PC&I, 
our acquisitions and recapitalization funding. That includes 
$750 million for the first heavy icebreaker replacement. There 
is money in there for the second offshore patrol cutter built 
down at Eastern Shipbuilding, sir, as well as long lead-time 
material for the third OPC.
    On the operating and support side, sir, that's the location 
of the budget where, since the enactment of the Budget Control 
Act of 2011, we've been funded at or below that budget control 
level, and that's--with all the tremendous capability and 
assets of Congress to support us, that is a part, as I talked 
about readiness, where I think we're going to have to pay our--
you know, pay keen attention in the coming years.
    Senator Nelson. OK.
    Admiral Schultz. So I don't think we're in a dire 
situation, but that is the part of the budget that you'll 
probably hear my voice of advocacy.
    Senator Nelson. Right.
    Admiral Schultz. The Commandant has talked about 5 percent 
increase each year, and I think that would be a pretty good 
target, sir.
    Senator Nelson. That readiness includes the maintenance and 
operational costs of your newest assets, which you're concerned 
about.
    Admiral Schultz. Yes, sir.
    Senator Nelson. All right. So what additional resources do 
you need?
    Admiral Schultz. Well, sir, Commandant Zukunft has talked 
about that 5 percent operations and support. That's the ops and 
management side of the budget. I think that's a good number. 
What we saw here in the 2018 Omnibus gives us about a 4 percent 
increase on the operating side of the equation, a big increase, 
as you know, on the acquisition side. If we could propel that 
type of growth forward, I think that would keep us on a good 
trajectory, sir, to sort of deal with some of our readiness 
challenges we've had and put us on a trajectory for success on 
that front in the future.
    Senator Nelson. Do you want to comment on what continuing 
resolutions, instead of a full year of appropriations, does to 
you?
    Admiral Schultz. Senator, continuing resolutions are 
problematic from any Federal agency. First and foremost, you 
know, we have about 7,000-plus civilian employees who deal in a 
great degree of uncertainty. Many of those frontline civilians 
work in our command centers in other locations. Sir, major 
acquisition projects, new starts, as we call them, have to put 
on hold when we have a continuing resolution. So there are 
challenges. Our pay accounts get stressed given the 
uncertainty.
    So I would say, sir, a predictable normal order on the 
appropriations front is much easier for a Federal agency to 
deal with.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Nelson.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    And thank you. Congratulations. I think you know that the 
Coast Guard has operations in Minnesota from Baudette to Duluth 
to Minneapolis, and these offices play a really important role 
in keeping shipping channels on the Great Lakes open and 
securing our northern border. And you're also active on inland 
waterways, like the Mississippi. So we're the ``Land of 10,000 
Lakes,'' and you're probably not on every one of them, but 
you're certainly on our biggest ones, so thank you for that.
    So my first question is about the Great Lakes, Vice 
Admiral. As the number one tonnage port on the Great Lakes, the 
Port of Duluth help ensure commodities like iron ore and grains 
make it to and from market. Keeping waterways on the Great 
Lakes open for commerce is critical. I think you know about the 
harsh winters that we've seen. If you just turned on the news 
this weekend, you could have seen the 2 feet of snow we 
suddenly had in Minnesota in April. And that's why the Coast 
Guard's icebreaker operations are so important. Does the U.S. 
Coast Guard have the necessary resources to maintain shipping 
and navigation channels in more severe winter seasons?
    Admiral Schultz. Senator, thank you for the question. The 
short answer to the question is I believe yes. We did have an 
early onset in heavy ice into this winter season. I'm a Great 
Lakes sailor previously in my career, having sailed in and out 
Duluth Harbor before. The Great Lakes are obviously a national 
treasure, ma'am, on many, many fronts.
    We have 640-foot WTGB icebreaking tugs. We are going 
through a service life extension for those ships that will 
propel us forward to get another decade-plus of service out of 
them. The Coast Guard Cutter MACKINAW is a tremendously capable 
ship. We have a very vibrant, well-functioning, well-oiled 
arrangement with the Canadian Coast Guard on breaking ice, 
ma'am.
    So I think that I can confidently tell you I think we're in 
solid shape on our capacity on the Great Lakes to enable that 
critical vital commerce you speak to, ma'am.
    Senator Klobuchar. Thank you. I mentioned the inland 
waterways as well. There's a fleet of 35 inland river tenders 
that help facilitate the transit over 4.5 trillion in commerce 
that goes annually through inland waters like the Mississippi. 
We certainly have a lot of business in Minnesota, big companies 
like Cargill, all our ag business that we have.
    The average age of these vessels is 52 years old, nearly 
twice their planned operation of life. How would you plan to 
ensure that the fleet of inland vessels stays safe, efficient, 
and possibly gets updated?
    Admiral Schultz. Well, Senator, I am truly appreciative of 
that question. One of my priorities here in my last 2 years at 
Atlantic Area was to sort of propel the recapitalization of 
these western river cutters, tenders, forward, and the 25 
million on top of the 1 point million budget request here 
recently in the 2018 appropriation I think is a terrific 
catalyst to keep us moving forward on that. The old----
    Senator Klobuchar. So as you look at your total budget, the 
inland ships will continue to be a priority then.
    Admiral Schultz. Ma'am, that is a priority, and I think 
this 25 million is accelerating our ability to deliver that 
ship. We are working with the Army Corps, who has a platform 
out there that can maybe allow us to draw some best--best 
learning from, and put that on a trajectory to start fielding 
those ships in the not too distant future.
    Senator Klobuchar. OK. As I mentioned, we have a long 
history with our lakes of recreational boating. And ensuring 
operators know how to safely maintain and operate their boats 
is important. I know that's one of your goals. Do you see any 
opportunities to improve the reach of the Coast Guard's boater 
safety educational resources?
    Admiral Schultz. Senator, boating safety obviously is 
important to the Coast Guard. A lot of our boating safety work 
has been delegated to our Coast Guard Auxiliary, the 24,000-
plus volunteers that assists us on the waterfront, that assists 
us in many, many different traditional and non-traditional 
missions.
    Boating safety, as a former district commander, a sector 
commander, is something that we will continue to serve as a 
priority. Increasingly sophisticated technology drives down the 
risk to the mariner, but that is a place where, you know, we 
save thousands, tens of thousands, of lives on an annual basis, 
and how we prevent those accidents on the front side is 
important to how many cases we respond to on the back side.
    Senator Klobuchar. And this really isn't in your--this is 
an Army Corps issue, and maybe Senator Peters would be more 
well versed on it than me, but I was just meeting with some of 
our steel people and some of the locks on the Great Lakes. 
There are issues that we want to see some upgrading there, and 
they were talking to me about how important that is. Do you 
have any views on that?
    Admiral Schultz. Senator, my only view would be there is a 
lot aging infrastructure, particularly in the heartland states. 
And I think that, you know, accessing the Navigation Harbor 
Fund and things is important. I would probably defer to my Army 
Corps colleagues on that, ma'am.
    Senator Klobuchar. Of course. Well, we may be working with 
you in the future because I was surprised as they talked about 
some--we've gotten some TIGER grants and other ways that we've 
upgraded, like the Port of Duluth and other things, but I know 
that if we have issues with shipping, it affects everyone, and 
I would assume it would affect your fleet as well.
    Admiral Schultz. Senator, we work on a daily basis with the 
Army Corps, other State partners, local partners, high water, 
low water, fast-moving water on the western rivers. That is a 
true partnership. We work through our sector commanders, our 35 
field commanders, that are the pointy end of the spear for that 
interface. And we have a terrific working relationship, ma'am. 
So I think if you have interest there, we can certainly circle 
back and would be partnered on enabling that 4.6 trillion of 
commerce that you speak to.
    Senator Klobuchar. Very good.
    Admiral Schultz. Thank you, Senator.
    Senator Klobuchar. Thank you. I like that you remembered 
the number. Thanks.
    Senator Wicker. Senator Klobuchar, thank you, and 
congratulations on getting in a lot of topics in a very short 
amount of time.
    [Laughter.]
    Senator Wicker. I'm impressed.
    Senator Klobuchar. When you have 10,000 lakes, you really 
get it, you reach.
    [Laughter.]
    Senator Wicker. Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you very much, Mr. Chair.
    And good morning and congratulations, Admiral Schultz, and 
congratulations to your wife and family, too. Service like this 
is a family affair, and we are very, very grateful to you. And 
I want to thank you as well for meeting with me in my office 
last week.
    I'll kind of add to what you're hearing from a number of 
the members. When we met last week, I raised the need for 
increased funding for our facility in New Castle, New 
Hampshire. We discussed what to me was a very startling fact, 
that until recently, the Coast Guard had a $1.6 billion backlog 
in shore facility construction and maintenance. A small portion 
of that backlog was addressed thanks to funding in an emergency 
supplemental appropriations bill, but the Coast Guard's 
backlog, as I understand it, is still sizable and grows every 
year.
    This shortfall in funding is alarming especially when the 
Coast Guard's sister services in the Department of Defense have 
a dedicated military construction bill that funds military 
construction in the range of $8 billion to $10 billion every 
year. Obviously, Congress plays a central role in funding this 
backlog, and this Committee should take up that cause.
    However, can you detail for us what steps you will take as 
Commandant to try to address this backlog? Also, if Congress 
doesn't address the backlog, what impact will it have on the 
Coast Guard over the long term?
    Admiral Schultz. Senator Hassan, thank you for the 
question, ma'am, and the opportunity to meet with you. We do, 
in fact, have about a $1.6 billion backlog, and the 
supplemental funds, there's about a 100 million bite taken out 
of that. So there's plenty of opportunity to get after that. 
Healthy organizations generally recapitalize at the rate of 
about 2 to 3 percent a year. We're less than 1 percent, so we 
have some challenges there.
    Your facility is in New Castle. I go up to the Great Lakes, 
Station St. Ignace. They're borrowing some DOT space for their 
boathouse to actually do repairs on their boat. So there's a 
backlog of projects.
    My commitment, ma'am, would be to press into that. We have 
an unfunded priorities list that we provide to the Congress 
each and every year. That list provides a rich listing of 
opportunities if Congress had the propensity and the interest 
to help the Coast Guard get after some of that backlog, that 
list will show us ideas.
    The omnibus had $34.2 million. That was our highest 
priority, housing issue up in Alaska. That will allow us to 
site the offshore patrol cutters or fast response cutters. So 
the Congress has been very supportive, ma'am. It is very 
difficult to make up a $1.6 billion backlog quickly. Admiral 
Zukunft has talked about that 5 percent that Senator Nelson 
alluded to. He has talked about a $2 billion capital investment 
program or acquisitions account. He's talking about $300 
million on an annual basis, sustained basis, to support shore 
infrastructure. That $300 million would really get after some 
of that $1.6 billion, ma'am.
    Senator Hassan. Well, thank you for that very complete 
answer. And I look forward to working with you on that. At the 
end of the day, deferred maintenance doesn't help any of us.
    Admiral Schultz. Senator, we appreciate your interest and 
support, ma'am.
    Senator Hassan. Well, thank you. You'll also recall from 
our discussion that New Hampshire is dealing with a deadly 
opioid epidemic resulting, particularly in our state, from 
overdoses of fentanyl. According to the most recent public 
reporting, illegal fentanyl is coming into the United States 
via the mail system and through smuggling efforts across our 
land borders.
    However, as I'm sure you know, drug trafficking 
organizations have increasingly adapted their tactics in order 
to evade narcotics detection and interdiction efforts. 
Therefore, while relatively little fentanyl appears to be 
trafficked across our maritime borders right now, I worry that 
as we strengthen the security of our land borders and crack 
down on opioid shipments in the mail system, drug traffickers 
will increasingly take to the seas to smuggle fentanyl into the 
United States.
    In anticipation of this, can you share how you will ensure 
that the Coast Guard is ready to adapt and evolve its 
counternarcotics detection and interdiction efforts to protect 
against maritime fentanyl trafficking?
    Admiral Schultz. Yes, Senator. Thank you for the question. 
The opioid crisis I think is exactly that, an epidemic, a 
crisis. The number of fatalities every year are growing, it's 
north of 10,000, and it's very troubling.
    Currently, as you noted, we don't see much movement of 
fentanyl in the maritime because it is so easy, I think, to 
ship it through the mail.
    Senator Hassan. Right.
    Admiral Schultz. An individual sitting in his or her 
basement with a laptop essentially is a cartel of sorts.
    Senator Hassan. Yes.
    Admiral Schultz. One small Equal-size package is hundreds 
of hits of fentanyl. So large bulk quantities like we deal 
with, with yesteryear on the marijuana transshipment, now on 
the cocaine, is very different when you're talking about the 
fentanyl and the opioids, ma'am. We understand the Dominican 
Republic is a bit of a node for the same transnational criminal 
organizations that have moved cocaine and marijuana in recent 
years, they're shipping through there. So we're keenly 
interested in that.
    We work--one of my hats I wear as the Atlantic Area 
Commander for the Secretary is the DHS Joint Task Force East.
    Senator Hassan. Right.
    Admiral Schultz. So I think what I can commit to, ma'am, is 
the Coast Guard will be part of that whole-of-the-Department, 
whole-of-government solution to the evolving opioid response.
    Senator Hassan. Yes.
    Admiral Schultz. We need to have a whole-of-government 
effort from treatment to interdiction and all points in 
between. And I think it's going to take the best and brightest 
minds. I'm going to participate in an event on Capitol Hill 
tomorrow, ma'am, focused on opioids. So you have my commitment 
that we will push the Coast Guard into the space to the extent 
we can be effective----
    Senator Hassan. Well, I thank you for that. And I just will 
note that part of the evolution that we're seeing with fentanyl 
is also that other drugs are being laced with it, like cocaine, 
which obviously has historically been one of the things that 
has been trafficked over maritime borders. So I continue to 
look forward to working with you on that. Thank you.
    Admiral Schultz. Thank you.
    Senator Hassan. And thank you, Mr. Chair.
    Senator Wicker. Thank you, Senator Hassan.
    Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman.
    And, Admiral, congratulations. Thanks for your wonderful 
service, to you and your family.
    A couple quick questions. You talk about readiness. How 
important is it that we pass the Coast Guard bill that it looks 
like we're going to be bringing up to the floor this week?
    Admiral Schultz. Senator, the Coast Guard authorization 
bill, I assume that's the bill you're speaking about, sir.
    Senator Sullivan. Yes.
    Admiral Schultz. There is generally, there's--not 
generally, there are always provisions in there that are 
important to the Coast Guard. I know the Coast Guard 
authorization bill often becomes a vehicle for some broader 
maritime issues that are often very difficult.
    One of the issues I understand has been around is the 
ballast water, you know, the Vessel Incidental Discharge Act 
provisions. And, you know, clearly leadership guidance from 
Congress on how the Nation should proceed there is helpful. We 
remain----
    Senator Sullivan. I'm talking about your troops. How 
important is it to pass the Coast Guard bill this week? Do you 
want to have the Coast Guard bill passed this week?
    Admiral Schultz. Senator, the Coast Guard bill being passed 
this week would be helpful.
    Senator Sullivan. Does it help on readiness? You talk about 
readiness. Does it help on readiness?
    Admiral Schultz. Sir, yes, it helps on readiness.
    Senator Sullivan. OK. It's good that you're advocating for 
the passage of the Coast Guard bill.
    Admiral Schultz. Senator, I didn't mean to imply that I 
wasn't advocating for that, it's just that we've gone many 
years in the past sometimes with a 4- to 7-year gap without an 
authorization bill, and while that's not ideal, the work of the 
Coast Guard does go forward. But the enabling legislation, sir, 
is always appreciated and helpful.
    Senator Sullivan. Let me ask, as the Chair of the 
Subcommittee on the Coast Guard, you and I talked about kind of 
the recapitalization. And do you commit, if you're confirmed, 
to work with this Committee, not just on the recap, but the 
laydown of the forces that are part of that recapitalization in 
terms of our oversight responsibilities?
    Admiral Schultz. Senator, we--you have my personal 
commitment to always work with our oversight committees on 
those issues that are important to the U.S. Senate and the U.S. 
House of Representatives. We would welcome a dialogue that 
allows us to understand your requirements, your political 
interests, and we would offer you where we think the best 
utilization of those assets provided by the Congress are. And I 
think there's a space in there where we can hopefully do the 
best by the Nation.
    Senator Sullivan. OK. It's something we do on the Armed 
Services Committee, on all the committees, right? It's an 
important role. So we are going to be very involved in that, 
and hopefully the Coast Guard, if you're confirmed, will be 
receptive. That's a big part of our job.
    I'd like to talk about my state. You know, Senator 
Klobuchar talked about 10,000 lakes. My state has more 
coastline than the rest of the country combined.
    Admiral Schultz. Yes, sir.
    Senator Sullivan. We certainly view the Coast Guard in 
light of what you do for Alaskans every day, which is heroic 
efforts, remarkable.
    I have--and you and I have talked about it--I've been a 
little concerned about some of the future planning operations 
giving that whether it's the Arctic, whether it's receding ice, 
whether it's opening transportation, surface transportation, 
whether it's fishing--you know, almost 60 percent of all 
seafood harvested in America comes from my state's waters.
    When you and I met earlier, you expressed the importance of 
a maximum patrol boat coverage for Alaska. Can you commit to me 
to the 2112 homeporting model for the fast response cutters?
    Admiral Schultz. Senator, yes, I can.
    Senator Sullivan. And I think you and I have also talked 
about the community of Petersburg, Alaska, and it's losing a 
110-foot Island-class patrol boat. I'm concerned about the 
Coast Guard's ability to meet the needs of southeast Alaskans, 
especially in the nearshore and inside passage areas, where you 
know there's an enormous amount of cruise ship traffic. Can I 
get your commitment to work with me and my team on my concerns 
that I've raised with you with regard to what's going on in 
Petersburg, Alaska, as well?
    Admiral Schultz. Senator, you have my commitment. We talked 
potentially about some 87-foot coastal patrol boats to possibly 
fill some of those localities that you're keenly and other 
members of the Alaska delegation are interested in. So the fast 
response cutters are programmed for 2,500 hours, replacing an 
aging 110-foot Island-class patrol boat that's currently 
programmed at 1,800 hours, and we're not getting close to that 
across the numbers.
    I think you'll see about a 20 percent increase in capacity 
with the fast response cutters, sir, but the door is open for 
that conversation about those 87 coastal patrol boats rounding 
out the Alaska patrol boat laydown.
    Senator Sullivan. OK. I would like to again get your 
commitment to--my view is what's going on in Alaska with the 
Arctic, with the fishing, with the rescues, is there is a 
dramatic increase in the need----
    Admiral Schultz. Yes, sir.
    Senator Sullivan.--for coverage, and as part of the 
recapitalization effort, I think it's imperative that at the 
end of the day we have more assets up in the great state of 
Alaska, which covers an entire strategic area for the country, 
the Arctic and other areas in the northern Pacific.
    Let me ask one final question. I know my time is very 
limited here. But you mentioned to me the Coast Guard has 
recently committed to support the Navy's 7th Fleet in the South 
China Sea. I'm on the Armed Services Committee, a number of 
Members here are on the Armed Services Committee. I couldn't 
agree more with the importance of the South China Sea and the 
Navy. We're trying to build a 355-ship Navy. I do get 
concerned, though, to be perfectly blunt, about combatant 
commanders looking at more platforms saying, ``Hey, I need a 
Coast Guard cutter here,'' in CENTCOM or in AFRICOM or 
somewhere else. Can I have your commitment to work with us? And 
this is both Members--there are a lot of Members who are on 
this Committee and the Armed Services Committee.
    I get a little worried about we have a lot of needs for the 
Coast Guard. My state has enormous needs for the Coast Guard. 
The Great Lakes has enormous needs for the Coast Guard. And I 
just get a little concerned when I hear, you know, that PACOM 
now wants some cutters to do patrols in the South China Sea. 
I'm worried about that. And, look, we need more assets. That's 
why we're building a big Navy, but I'm not so sure that's the 
best use of the Coast Guard. Do you have any thoughts on that 
right now?
    But, hey, can we get your commitment to work on a 
bipartisan way to make sure we're not sending the men and women 
of the Coast Guard, who do great work, we love them, but out to 
places where I'm not sure I would call that primary mission 
running patrols in the South China Sea. Do you have any 
thoughts on that?
    Admiral Schultz. Yes, Senator. Thank you for the question. 
If I can go back just briefly on the last question about the 
patrol boats. One aspect there, sir, would be, I think as you 
know and as we discussed, siting any platform in Alaska is 
challenging. We are committed. The housing money is helpful. 
Getting that right so it enables our men and women on the 
frontlines to do the missions, getting the right support 
facilities, we just welcome the continued support of the Alaska 
delegation there. Sir----
    Senator Sullivan. We would have that, but I want to remind 
you it's challenging, but I get frustrated when I, you know, 
meet with Coast Guard officials who say, ``Well, it's too 
costly.'' It's too costly? No, it's not. You've got a job to do 
to cover this part of America, right?
    Admiral Schultz. Yes, sir.
    Senator Sullivan. And put it in your budget what you're 
going to need, and we will support it. But, I mean, the notion 
that the bean counters are constantly saying, ``Oh, it's too 
costly. We can't do--,'' you can do maintenance there. I was 
just in a Vigor shipyard in Ketchikan. You can do plenty of 
maintenance there.
    Admiral Schultz. Yes, sir.
    Senator Sullivan. So we need to kind of change this mindset 
a little bit here where if you need to cover a part of America, 
which is my state, then that's what you should be requesting, 
not bean counters are saying, ``No, we've got to keep everybody 
in the lower 48 because it's too costly.'' It's not too costly. 
It's part of the mission. And I've been hearing that too much 
from the Coast Guard, Admiral, and to be honest, you know, I'm 
going to need strong commitments from you on this where that 
kind of thinking is frustrating to me.
    Admiral Schultz. Sir, I appreciate your frustration. You 
have my commitment to work with you in that space, to go on 
budget for our asks.
    Sir, if I can, I'll pivot to your question about the 
national security cutters. There is a demand for Coast Guard 
services across the globe, sir, and a large proportion of our 
day-to-day force laydown, about 40 percent of our major 
cutters, our maritime patrol aircraft, our helicopters, 
particularly our Airborne Use of Force helicopters, support the 
combatant commanders, whether it's on the front line on drugs, 
other niche capabilities.
    Sir, we bring some unique authorities, unique capabilities. 
For 2019, the Commandant has pushed into the global force 
management process the availability of the national security 
cutter. I recognize your concerns. It's a zero-sum game. There 
are competing national security interests. We have--my 
colleague, the new PACOM Commander, is having a hearing today. 
I will certainly engage Admiral Davidson, pending his 
successful confirmation, about how he views the Coast Guard 
roles there, sir, and we will have that appropriate 
conversation about national homeland security and the 
appropriate niche role for the Coast Guard in that.
    Senator Sullivan. Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Sullivan.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    And, Vice Admiral Schultz, it's wonderful to have you here 
before us today. Thank you for your service and your 
willingness to take on this added responsibility. It's always 
good to follow my friend Senator Sullivan, who I know reminded 
you of the coastline of Alaska. So I'm going to certainly 
remind you that second to Alaska is the state of Michigan in 
terms of the amount of coastline we have. So the Coast Guard 
provides incredibly valuable services to my state, and I want 
to thank you for your service and all the men and women who 
serve in the Coast Guard, the great work they do in Michigan.
    You and I have spent some time in my office. And if I could 
also say publicly, I appreciate your statements about how much 
you enjoyed your service in Michigan earlier in your career, 
and the fact that your wife loved Michigan as well. So I 
appreciate those comments.
    I also appreciated our follow up yesterday regarding the 
investigation into an incident that has just recently occurred 
in the Straits of Mackinac. You know, as we discussed, the 
incident involves an anchor strike on an electric transmission 
line leading to the spill of about 600 gallons of mineral oil. 
And I know the Coast Guard is leading the unified command 
response to that spill.
    We've also learned that potentially the same vehicle that 
struck the transmission lines may have struck the Line 5 oil 
pipeline, which has experienced some denting. And as you know, 
and we discussed, the prospect of an oil spill in the Straits 
of Mackinac would be absolutely catastrophic. And given the 
weather event that we just had this past weekend with seas in 
excess of 12 feet and approaching higher ones, it also could 
cause a situation where it is very difficult, if not 
impossible, to clean up a spill. In fact, in a briefing that I 
had with the Coast Guard prior to this weekend, I was informed 
that the skimmers in the Straits of Mackinac would be 
ineffective in seas greater than 3 feet.
    So we definitely had a situation with a damaged pipeline 
where we didn't have eyes on that pipeline, even though it's 
been a couple weeks that we weren't sure if something happened, 
we could actually clean it up. The company shut down the 
pipeline temporarily, but has now reopened it.
    My question to you, though, Are we still on track for 
underwater visual inspections to be conducted today?
    Admiral Schultz. Senator, my understanding as of an update 
this morning is that the remote-operated vehicle and side-
scanning sonar operations may be delayed a couple days during 
weather. My understanding is as soon as they have the 
appropriate weather, we're going to put--you know, deploy those 
capabilities, and that will be done. So, again, this was about 
a 9:30 update, they told me we may be sliding a couple days to 
the right. But we ensure your commitment to get eyes onto the 
pipeline, the cables down there, to fully understand what's 
going on, sir.
    Senator Peters. So because of weather, another couple days?
    Admiral Schultz. Sir, potentially a couple days. I think 
they will put the capability in the water as soon as the 
weather window allows that to occur.
    Senator Peters. But the ROVs are onsite.
    Admiral Schultz. Yes, sir.
    Senator Peters. They finally arrived. My understanding--
well, we know it has taken at least 2 weeks for that to get up 
there. That seems to me unacceptable to get the equipment up 
there. Obviously, weather delays it further, but they could 
have been in the water sooner.
    How can we get these assets to a critical place like the 
Straits of Mackinac a whole lot quicker?
    Admiral Schultz. Well, Senator, these remote-operated 
vehicles, there's a finite number, they're an expensive piece 
of gear. They are sited, you know, many times in the Gulf of 
Mexico supporting the offshore industry down there in different 
locations, research locations. I know you have some interest in 
some type of center up there, oil spill type center. That could 
be a venue potentially for that.
    Again, I won't commit to--you know, most of those ROVs are 
owned in the private sector, so how they're allocated, what 
their business cost share models are, I'm not expert on that, 
sir, but, you know, the center, as you advocate, could be a 
place.
    Obviously, a center like that, we'd want to tie the work of 
that center to an R&D center which is doing work on oil spill 
and specifically some tar sands-like oil spill research. We're 
doing some work in Kalamazoo in the river, we're doing some 
work in Lake Huron, and a third site later this summer. We've 
got a report due out probably summer of 2019 here that will 
talk about our findings on that oil spill research that our R&D 
center is doing, sir.
    Senator Peters. Well, as you mentioned, we have language 
for a National Center of Expertise for freshwater oil spill 
cleanup in the Coast Guard reauthorization bill. And I 
certainly appreciate it and I hope I have your commitment to 
work with the creation of that center so that we learn more 
about freshwater cleanup. We know a lot about saltwater cleanup 
with oil spills. My understanding is we don't know anywhere 
near the same amount when it comes to fresh water, and having a 
center that brings the Coast Guard expertise as well as our 
academic institutions and private sector could bridge that gap 
and also have pre-positioned equipment in a critical area. 
Would you agree?
    Admiral Schultz. Senator, I think that is a space that we 
can continue to look at mutually and understand your views on 
that and where you see that going, and bring our expertise to 
that, sir.
    Senator Peters. It is--is it still the case of the 
transmission lines and the Line 5 are being handled as two 
separate incidents with the unified command working to deploy 
one ROV to inspect the transmission lines, and Enbridge, the 
company that operates Line 5, they are going to send their own 
rented ROV craft to inspect the line? Is that correct?
    Admiral Schultz. Sir, I don't have that level of fidelity 
on the multiple ROVs. I think the pipeline falls under the 
Pipeline Hazardous Safety Management Agency as a peer Federal 
agency. We are on-scene as the Federal on-scene coordinator for 
the spillage from the cables, worst case scenario, up to 800 
gallons. We've been responding to that. We're part of the RP 
with the state of Michigan, with ATC, the responsible party 
there, sir.
    So there is a little bit of a splitting of functionalities 
across the two Federal agencies involved, sir. If they're 
specifically using a different ROV on the cables versus the 
pipeline, I don't have that fidelity, sir, on the details. I 
apologize for that.
    Senator Wicker. Thank you, Senator Peters.
    Senator Lee.

                  STATEMENT OF HON. MIKE LEE, 
                     U.S. SENATOR FROM UTAH

    Senator Lee. Thank you, Mr. Chairman.
    Thanks for being with us, Admiral Schultz, and for all you 
do. I want to talk to you for a moment about the Coast Guard's 
work in the Arctic. As you know, our territorial sovereignty 
extends 200 nautical miles offshore. And I just wanted to talk 
to you a little bit about the Arctic and what the U.S. 
interests are in the Arctic and what threats there might be to 
our sovereignty in the Arctic.
    Admiral Schultz. Senator, thank you for the question. The 
Arctic, sir, is a fascinating location, sir. We have national 
security interest in the Arctic, science interest in the 
Arctic. There is increasing human presence in the Arctic, 
expeditionary cruises. A couple of years back, Shell had 
invested billions of dollars up there to potentially extract 
oil from relatively shallow water locations. The energy 
situation in the Nation has changed a little bit, and that's 
been pushed to the right there. But, sir, there are many 
interests. There are rich minerals below in the seabed there. 
And all that rolls up into importance for the Nation.
    Russia, China, are increasingly asserting their presence in 
the Arctic here. And from a national security standpoint, sir, 
I think the Arctic is a place we absolutely have to be 
represented. The Coast Guard has been an appropriate de facto 
lead agency for what's going on in the Arctic, sir.
    Senator Lee. Commercial shipping in the Arctic, is it 
changing a lot?
    Admiral Schultz. Sir, I think the prognosis for commercial 
shipping through the Arctic is going to be interesting to see. 
That will obviously be driven by how they view the economy 
there, sir, the economics of that. I think you will anticipate 
further shipping across the Arctic. Exactly how much, I think 
north of Russia, northern sea routes, Russia sees that as an 
income generator for their society here in the Arctic, the U.S. 
portion of the Arctic, sir. I think TBD a little bit in terms 
of how much shipping we'll actually see there, sir. But there 
is clearly more expeditionary type cruise vessels up there, 
which brings hundreds of people to the Arctic, and there's not 
much in terms of capacity where there is need for some rescue. 
We're up there seasonally in our Arctic Shield operations from 
summer to about mid-fall, late fall, on an annual basis.
    Senator Lee. One of the things that always comes up when we 
talk about the Arctic involves icebreakers. Questions arise 
with regard to how big our fleet needs to be, what the mix 
should be in terms of heavy versus light icebreakers, how we 
should acquire the ship, whether it should be leased or bought 
outright.
    And, of course, one of the main challenges that we have to 
face involves U.S. law. Federal law generally restricts the 
Coast Guard from acquiring vessels from foreign shipyards, 
either the vessels themselves or major components thereof. 
There are some suggestions that we could reduce the costs of 
these vessels if we were to ease some of the restrictions 
imposed by U.S. law. So do you think there is any truth to the 
suggestion that we ought to at least consider utilizing foreign 
shipyards at least among our NATO allies in order to save 
money?
    Admiral Schultz. Sir, I would tell you first and foremost 
we appreciate the support of the administration and the 
Congress on moving forward with the recapitalization for our 
POLAR STAR, a 1970s been--1970s version, 1970s built 
icebreaker. That's the one heavy icebreaker in the U.S. 
inventory. We have a medium icebreaker in the 1970s--or the 
1980s rather--the Coast Guard Cutter Healy.
    Sir, I think building that ship domestically, if we look 
back to the High Latitude Study, it talks about the need for 
three heavies, three mediums, as maybe a baseline. There are 
other views on that. The National Academy of Science has talked 
about four heavies and maybe a little different mix there at 
the end of the day. I think if American shipbuilding sees the 
opportunity to build more than one, maybe buildup to three, 
four, potentially more icebreakers, you know, then there's a 
different conversation about costs and economies of scale 
potentially block-buy contracting opportunities.
    Sir, I'm going to sort of shy away from whether we want to 
look to foreign shipbuilders or not. We will inform the design 
of our heavy icebreaker with the best that industry has, and 
that's in from the international community, not just domestic. 
We have not built an icebreaker here in this country, a heavy 
icebreaker, since the POLAR STAR and the POLAR SEA in the 
1970s.
    Senator Lee. I want to thank you for all of the help that 
you provided hurricane victims in the last few months. As you 
know, the Trump administration has recently waived the Jones 
Act in order to help some of the relief efforts in Puerto Rico. 
In your experience, does the Jones Act increase the price of 
shipping goods between U.S. ports?
    Admiral Schultz. Senator, thank you for that question. Sir, 
the Jones Act has been on the books for more than 100 years. 
Specifically, if you look at the waiver of the Jones Act, I 
think it's for about 10 days during the hurricane response 
period. I think a lot of folks were pushing into this space 
saying the Jones Act was inhibiting the movement of cargos to 
Puerto Rico to provide relief to the citizens of the 
Commonwealth of Puerto Rico.
    My sense on the ground and from looking at this from my 
vantage point at Atlantic Area was that was not the case. There 
were available ships, Jones Act-certified ships. The problem 
was once the cargo reached Puerto Rico, it was jammed up in the 
shipment down there, whether that was related to the roads or 
it was related to the port infrastructure.
    So I think the Jones Act is subject to the judgments of the 
Congress. Customs and Border Protection is the primary agency 
that oversees the implementation of the Jones Act. I would tell 
you, Senator, during the hurricane fall response, I don't think 
the Jones Act was an inhibiting function to our ability to 
respond to the citizens of Puerto Rico.
    Senator Lee. Fair point. My time is expired. Thank you.
    Senator Wicker. Thank you, Senator Lee.
    Admiral, you have two icebreakers, is that right?
    Admiral Schultz. We have one medium and one heavy; yes, 
sir.
    Senator Wicker. How many do you need?
    Admiral Schultz. Senator, I would defer to the High 
Latitude Study. The Commandants--the last three Commandants 
have talked about the need to recapitalize. I think the 
conversation right now is----
    Senator Wicker. And so what does that say?
    Admiral Schultz. Three heavies, three mediums, is probably 
a good place to perpetuate the conversation forward, sir.
    Senator Wicker. OK. Thank you.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Good morning. Congratulations to you 
and thank you to you for your service, and to your family--Dawn 
Marie, thank you--and to your mom, if she is watching, and if 
not, I hope you'll give her a call after we're done here. She 
ought to be very proud of you, as should the Coast Guard, for 
your service. And I'm proud that you're a native of East 
Hartford and hope that you will visit often at the Coast Guard 
Academy and at the site of the soon to be built Coast Guard 
Museum. I feel that I probably don't even need to ask you, but 
I hope that you will sustain and enhance the commitment of the 
Coast Guard to the museum. And I can pledge to you that for 
myself and for I think all of us in the delegation, we are 
strongly committed to do anything and everything to make that 
museum a reality.
    Admiral Schultz. Senator, as you know, we're the only armed 
service without a national museum. I think there is a need to 
tell the Coast Guard's story, sir. And we will certainly work 
for--look for opportunities, continue to work with the 
congressional delegation, the State of Connecticut, on the 
ability to field and get that museum open in the coming--coming 
year, sir.
    Senator Blumenthal. It is an awe-inspiring story, and it 
needs to be told, and it will be an extraordinary contribution 
to all of our armed services to have that museum. And there is 
good news in Connecticut, the Bond Commission has approved, in 
fact just this last week, on Friday, $19.5 million to complete 
a pedestrian bridge and link with the National Coast Guard 
Museum plan for downtown New London. That's an essential 
commitment from the State of Connecticut. We worked for it and 
advocated it. And I hope that the private sector, as well as 
the Federal Government, will hold true to that commitment.
    Admiral Schultz. Yes, sir.
    Senator Blumenthal. I want to follow up on the question of 
icebreakers because I just came from a confirmation hearing for 
General O'Shaughnessy for NORTHCOM, and made the point to him, 
and I'm going to reiterate it to you, that compared to the 
Russians, we are at a severe disadvantage in the Arctic. We 
have two icebreakers there. They have 40, with another 11 in 
development.
    Maybe you can explain to the American public, I think you 
and I know, why icebreakers are so important in that part of 
the world, particularly with climate change reducing the ice 
cover.
    Admiral Schultz. Well, Senator, as I mentioned earlier here 
to Senator Lee and Senator Sullivan, the Arctic is an important 
region, and the Coast Guard has clear statutory 
responsibilities there. It's an important region from a 
national security and maritime security needs, sir. It's 
important from increasing human presence up there and ties to 
our statutory roles, sir.
    The science is important there. I think--I am not a 
scientist. I think it's hard to argue that--you know, and 
Admiral Allen, one of our former Commandants, used to say he 
was agnostic to the science, but there's water where there 
didn't used to be water.
    I think, sir, the U.S. needs to pay attention to what's 
going on in the Arctic. And we're very excited that our 2019 
budget provides a $750 million line item to move forward with 
potentially a second icebreaker. We've been working in an 
Integrated Product Office with the United States Navy, the SCN 
office here, on the first icebreaker. With the support of 
Congress, we've had some incremental funding. The 2018 budget 
included another $150 million funding.
    So I think we're on a good trajectory to close that gap, 
but as the previous questions talked about, you know, there is 
a need for multiple icebreakers to maintain a year-round 
presence in the high latitudes.
    Senator Blumenthal. Focusing on the Coast Guard Academy for 
the moment, there have been recent allegations about racial 
discrimination. There have been some incidents that perhaps 
merit investigation. Probably every incident and every 
allegation deserves investigation. Will you commit to 
scrutinize and make sure that there are no credible claims of 
discrimination at the Coast Guard Academy?
    Admiral Schultz. Senator, absolutely. I just spent a few 
days at the Coast Guard Academy last week for their Eclipse 
Week activities, which is about diversity and inclusiveness, 
and my sense is the superintendent, Admiral Rendon, is wholly 
committed, sir, to investigating each and every situation there 
to set a tone here where hopefully there is not a need for 
further investigations. But we will take them seriously, sir.
    You have my commitment that we will support Admiral Rendon. 
And we want to have an environment at the Coast Guard Academy 
that is totally inclusive. We've done very well with female 
cadets. The corps--the population of the corps that is female 
is about 39, 40 percent. Underrepresented minorities are a much 
smaller number, sir. I think at some point, when we can 
continue to grow those numbers, there's a greater sense of 
belonging, involvement. And you have my commitment, sir, to 
continue to make our Coast Guard Academy and our service look 
more like the Nation we represent.
    Senator Blumenthal. I think that's a very, very important 
commitment, as is the commitment which I hope that you share to 
investigating and stopping all sexual assault that may occur 
either at the Coast Guard Academy or within your service, and 
obviously that issue is not limited to your service, it's one 
that we've raised in our Armed Forces generally and in college 
campuses----
    Admiral Schultz. Sir, you have my 100 percent commitment. 
Until we have eradicated all sexual assault from the services, 
we have much work to do.
    Senator Blumenthal. Thank you.
    Thanks, Mr. Chairman.
    Senator Wicker. The Coast Guard Academy is one of the 
finest institutions of higher learning in the country, in the 
world, and we certainly want to support them. I just wanted to 
add that.
    Let me just ask, are we comparing apples to oranges when we 
say the Russians have 40 icebreakers and we only have 2?
    Admiral Schultz. Senator, I think clearly if you just have 
a conversation about numbers, it's--you know, it's a dire 
conversation. I think the Russian interest, the geography, is 
slightly different, the Russians' ties to where they're 
extracting resource from the Arctic. But there is a takeaway 
there, sir, that we have had very little commitment to the 
Arctic in the past. If you look at a non-Arctic nation like 
China, who is working on a second icebreaker and pushing their 
sovereign interests into the Arctic domain, sir, I think that's 
something we need to sit up and pay attention to.
    So I would caution the conversation is not wholly about the 
numbers, but it's the fact that we have one heavy breaker that 
can go to both of the high latitudes. We have a science ship 
that can operate in certain times of the year in the Arctic. 
That is insufficient, sir, to tend to the Nation's needs here 
in that part of the world.
    Senator Wicker. Those 40 Russian icebreakers, how many of 
them are what you would call heavy?
    Admiral Schultz. Sir, I would have to get back to you on 
the exact number. I think the number of heavies is a number 6 
to 10 there. But let me circle back, sir, for the record, with 
your staff to make sure I give you the well-informed numbers 
there, sir.
    Senator Wicker. I think Senator Blumenthal would agree. We 
know you're constrained by what you hear from the Budget 
Office, and we appreciate their concerns, but do tell us what 
you need.
    Admiral Schultz. Absolutely, sir.
    Senator Wicker. Thank you very much.
    Senator Baldwin, you are going to be recognized next. By 
rule, Senator Thune would be next, but he is graciously 
understanding that you have waited patiently, and so you are 
now recognized.

               STATEMENT OF HON. TAMMY BALDWIN, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Baldwin. Thank you, Mr. Chairman and Mr. Chairman, 
for that courtesy.
    Admiral Schultz, again congratulations and thank you for 
your service. I appreciate your recognition of the importance 
of Great Lakes icebreaking operations; however, I think we may 
have a difference of opinion on whether the Coast Guard has all 
the assets it needs to effectively meet its icebreaking mission 
in the Great Lakes. I believe that we need a second heavy 
icebreaker on the Great Lakes and that the current fleet, as 
well as our reliance on Canadian Coast Guard assets, isn't 
enough.
    A few years ago, we saw more than $1 billion in lost 
economic activity and an estimated 6,000 lost jobs due to ice 
coverage. These costs far outstrip the cost of a new 
icebreaker. And I understand your budget constraints, which 
have been mentioned several times, which is why, as a member of 
the Homeland Security Appropriations Subcommittee, I've helped 
secure additional funding above the budget request for initial 
survey and design work for the vessel. In other words, this is 
not an unfunded mandate for the Coast Guard.
    Do you agree that the Coast Guard's icebreaking capacity on 
the Great Lakes could be improved by the procurement of a 
second heavy icebreaker like the MACKINAW? And, second, what is 
the status of survey and design work on this icebreaker? 
Congress provided $2 million in Fiscal Year 2017 and another $3 
million in Fiscal Year 2018 for these acquisition activities, 
and I am concerned that the Coast Guard is slow-walking this 
project contrary to congressional intent.
    Admiral Schultz. Well, Senator, thank you for the question. 
And your interest and the Congress' interest in additional 
icebreaking capacity I think is clearly signaled through the 
incremental 2 and then additional 3 million here in the 2018 
omnibus. And you have my commitment, ma'am, to work with the 
oversight committee on talking about those needs. We clearly--
there is always a finite amount of budget, and we're trying 
to--you know, we're lifting national security cutters, offshore 
patrol cutters, fast response cutters, aviation needs there. I 
guess the conversation is really not, ``Would additional 
capacity be helpful?'' the conversation sometimes comes down 
to, ``Where would an additional icebreaker for the Great Lakes 
fit in the sequencing?'' because the pie is always going to be 
of a certain size. And the Coast Guard is an element of the 
Homeland Security appropriations, and given your position 
there, ma'am, I don't need to--you know that better than I do. 
So I would certainly commit to working with you, ma'am, and the 
oversight committee regarding the interest on the additional 
capacity on the Great Lakes.
    Regarding the status of the survey and design and the 
initial 2 million that came in previous years, I need to circle 
back with your staff on that, ma'am, to make sure we give you 
the latest situation with that. And your concerns that we're 
dragging our heels, I hope that's not the case. But I will 
ensure we circle back with your staff and give you a full 
update on where we are with that. And you have my commitment to 
pull that forward and make sure we are responsive to the 
congressional interest to deeper dive into that.
    Senator Baldwin. Thank you. I appreciate that commitment 
and will look forward to that follow up.
    I am very concerned about our security with regard to both 
procurement and the assets that you have, but also the 
industrial base domestically capable of providing those. I was 
here for the exchange with my colleague on ``Buy America,'' 
provisions.
    By way of an example, I was disappointed to recently learn 
that of the more than 700 Coast Guard boats that have outboard 
motors, only 91 use U.S. motors, like those made in Wisconsin 
by Mercury Marine or Evinrude. In other words, 87 percent of 
U.S. Coast Guard small watercraft use foreign-made outboard 
motors or engines.
    Later this week, I'm going to be introducing a measure 
called ``Made In America Shipbuilding,'' which strengthens 
``Buy America'' requirements for the Federal Government's 
purchase of ships. It does so by expanding current law to cover 
all Federal agencies, including the Coast Guard, all classes of 
ships, and substantially more shipboard components, including 
outboard motors.
    To protect against contract disruption and unintended 
consequences, there are waivers for legitimate reasons of cost, 
schedule, competition, and national security, but this bill 
would help strengthen our domestic shipbuilding industrial 
base, and it's very much aligned with the President's stated 
``Buy American, Hire American'' policy.
    So, Admiral Schultz, while I know that the Coast Guard will 
always comply with applicable domestic content laws and 
regulations, I'd like to know your views on ``Buy America'' 
requirements for ships and shipboard components. Do you believe 
that ships and their components should be made in America?
    Admiral Schultz. Senator, thank you for the question. And 
as we spoke when we met here a couple weeks back in your 
office, we will fully comply with the law and ``Buy American'' 
provisions of the law. You started the conversation and the 
question about the outboard motors on the backs of many of our 
small boats, hundreds of our small boats. We are in compliance 
with the law there, ma'am, in terms of the intent and the 
spirit of the law. And as we field--first, those are on the 
backs of safe boats built up in Washington State and Metal 
Shark built down in the Gulf region.
    As we try to maintain, you know, centralize supportability 
for that platform, sticking with the outboards we started with 
sort of makes sense for the life of those ships. But I 
understand your concern, ma'am, when we have American-made 
outboard motor manufacturers. And if the law changes and 
tightens up that, we will certainly continue to comply with 
that.
    Ma'am, in terms of American shipbuilding, I think you heard 
my response to Senator Lee, and you referred to that, that 
obviously we have an industrial base here. To the extent the 
industrial base can meet the needs of services like the Coast 
Guard and the Navy and the other Department of Defense 
entities, I think that's a good news story for America. It's 
consistent with the administration. But ultimately, ma'am, we 
will defer to the law. And Fairbanks Morse will be providing 
the engines for those offshore patrol cutters that we're 
extremely excited to build with the support of this Committee 
and the Senate and the Congress writ large.
    So I am committed to the ``Buy American'' law, ma'am, to 
compliance with that for the agency. And if those laws get 
modified, you know, further tightened up, we will certainly 
make sure that we're in dialogue and compliance.
    Senator Baldwin. Thank you.
    Senator Wicker. Thank you, Senator Baldwin.
    Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Thank you, Mr. Chairman.
    Good morning and welcome, Vice Admiral Schultz. And again 
congratulations on your nomination to be the Commandant of the 
Coast Guard. I, like many others that you've heard from today, 
appreciate your many years of service to our Nation and your 
willingness to accept this new responsibility. And as you well 
know, the Coast Guard is vital to both the physical and 
economic safety of our Nation, and it isn't just those who live 
on our coasts that benefit.
    We need a Coast Guard that is able to protect our borders, 
project U.S. interests, and ensure the free flow of 
international commerce. And I take our Committee's role in 
ensuring the Coast Guard has strong leadership seriously. And 
looking at your qualifications and past performance, I'm 
confident the Coast Guard is going to be in good hands.
    I do have a couple of quick questions. Coast Guard 
helicopters have repeatedly proven their worth in every 
disaster, including last year's three devastating hurricanes. 
The current fleet of helicopters is decades old, well past the 
design life of these aircraft, and yet there is not a clear 
plan to replace them.
    What is the recapitalization strategy for the Coast Guard's 
rotary-wing assets and when should we expect to receive a copy 
of the strategy?
    Admiral Schultz. Senator, first and foremost, we are 
overdue with that report. That was due here in February. That 
report has been routed through the administration. It has left 
the Department. It is with OMB. Hopefully, that will be up here 
on the Hill here shortly.
    In terms of what the contents of that report, I think what 
we're looking at is a service life extension for our smaller 
Dolphin HH-65 helicopters as well as our Jayhawk or H-60 
helicopters, probably pushing the service life of those 
helicopters into the mid-2030s. We are very much working in 
lockstep with DoD on the Future Vertical Lift program, and that 
will best inform that.
    We're confident that we can squeeze those additional hours 
safely out of those helicopters. We have a tremendously robust 
capability down in Elizabeth City, North Carolina, where we can 
essentially rework those helicopters, take them down to a bare 
carcass, rewire, re-engine. We have engine labs down there. And 
we're pretty confident that we'll be in good shape moving 
forward into the mid-'30s with the 65 and the 60 and then 
informing that conversation with Future Vertical Lift working 
collaboratively with DoD.
    The Chairman. OK. Thanks. As you may know, Burlington 
Northern Santa Fe railroad has sought approval for a new 
railroad bridge across the Pend Oreille River in Sandpoint, 
Idaho. This new bridge would run beside an already existing 
railroad bridge and just slightly apart from an existing 
highway bridge, seemingly making the environmental impact of 
this new bridge minimal.
    As you may also know, this track is an important line for 
goods moving between the West Coast and the Heartland, 
including for South Dakota grain and other agricultural 
products.
    I understand that we want to make sure the environmental 
assessments are completed, but this bridge will be placed 
alongside two existing bridges. It will not add any additional 
traffic that's not already flowing, albeit currently more 
slowly. When will the Coast Guard provide approval for this 
bridge?
    Admiral Schultz. Well, Senator, we are--and thank you, Mr. 
Chairman, for the question. We are in that space for 51 years 
now with oversight of bridges over navigable waters. There are 
environmental considerations there, putting those additional 
rails alongside existing bridges, and potentially that may lead 
to Environmental Impact Statement. I need, sir, to circle back 
with our bridge administration folks, and I would offer a 
chance to come up here and brief your staff on the details of 
that. I am not intimately familiar with the timeline there, but 
we can certainly circle back and get your team that information 
as soon as possible.
    The Chairman. I would really appreciate that. It's an 
important transit line for an awful lot of freight that 
originates in the middle of the country, including my state.
    Admiral Schultz. Yes, sir.
    The Chairman. I have a letter here, Mr. Chairman, from the 
Governor of South Dakota that I would like to insert for the 
record.
    Senator Wicker. Without objection.
    [The information referred to follows:]

                                      State of South Dakota
                                         Pierre, SD, April 10, 2018

Admiral Paul F. Zukunft,
Commandant of the U.S. Coast Guard,
U.S. Coast Guard,
Washington, DC.

Dear Mr. Zukunft,

    I am writing to express support for the Sandpoint Junction 
Connector project. The project will provide the capacity needed for 
current traffic volumes and accommodate future growth on movements 
along BNSF's northern transcontinental main line, a nationally 
significant freight corridor. Of the over 130,000 carloads of 
agriculture BNSF hauled out of South Dakota, over half of those 
products traveled the northern transcontinental route, making it a 
critical transportation route for South Dakota's farmers and 
agriculture industry.
    South Dakota always has been and will continue to be an 
agricultural state. It remains the common thread linking citizens, 
businesses, and communities of our state. South Dakota's agriculture 
industry has a $25.6 billion economic impact each year and generates 20 
percent of our state's economic activity. In 2017, BNSF shipped over 
130,000 carloads of wheat, soybeans, corn, sweet beats, beans, and 
other agricultural products from South Dakota to plants around the 
country for domestic use and to ports for export abroad.
    BNSF has invested nearly $2 billion to expand capacity on the 
northern transcontinental route since 2013. The one-lane bridge at 
Sandpoint remains a critical chokepoint in the network. The proposed 
Sandpoint Junction Connector project adds capacity and alleviates that 
chokepoint to allow enhanced movement of freight, including South 
Dakota's agricultural products.
    I am concerned incorrect information about this project and the 
type of rail traffic it supports could cause a delay in the project. 
Agriculture products and consumer goods are the largest commodity 
groups delivered through the Sandpoint project area, both critical to 
South Dakota's economy.
    This project is in the interest of all communities and shippers 
that depend on a robust rail transportation corridor. I am confident 
your agency will conduct a thorough review and analysis of the proposal 
in a timely fashion.
            Sincerely,
                                           Dennis Daugaard,
                                                          Governor.
DD:rg
CC:


U.S. Army Corps of Engineers Chief   U.S. Army Corps of Engineers
 of Engineers:                       Walla Walla District
Lt Gen Todd T Semonite               Coeur d'Alene Regulatory Office
Headquarters                         Coeur d'Alene, ID.
U.S. Army Corps of Engineers
Washington, DC.
 
U.S. Coast Guard
District 13 Bridge Administration
 Office
Seattle, WA.
 


    The Chairman. And, Mr. Chairman, I yield back my time, and 
I look forward to processing the admiral's nomination as 
quickly as possible.
    Admiral Schultz. Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Chairman Thune.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you.
    Admiral, it's good to see you again. Congratulations. I 
apologize for not being here for the first part of your 
testimony. That's why your written testimony is so important. I 
had two other hearings going on, so that's why you see us 
bumping in and out of here.
    But thank you again for your commitment and everything 
you've done on behalf of the country. And I so appreciate you 
taking the time to meet with me. That's why it was so 
important.
    I understand that previously from Senator Blumenthal's 
questioning, you made a commitment to address sexual assault at 
the Coast Guard Academy as well as racial discrimination. Is 
that correct?
    Admiral Schultz. Senator, I made a commitment that sexual 
assault and racial discrimination is intolerable anywhere in 
our service, whether that's at our Academy or anywhere amongst 
our rank-and-file units all over the country and all over the 
world. We want to drive that down to zero incidents because 
it's completely inconsistent with our core values of honor, 
respect, and devotion to duty. You have my full and 100 percent 
commitment, ma'am.
    Senator Cortez Masto. Thank you. And during--I understand 
during the conversation that you had with Senator Blumenthal, 
you identified the percentage of women at the Coast Guard 
Academy being at its highest amongst the service academies, at 
38 percent.
    Admiral Schultz. Ma'am, I am not sure if it's the highest. 
We are at about 38 to 40 percent right now.
    Senator Cortez Masto. OK.
    Admiral Schultz. That's I think the high-water mark for us, 
and I think the women feel completely integrated with the Corps 
of Cadets. I'm not sure how that compares with the other 
service academies, Senator.
    Senator Cortez Masto. OK. Let me ask you this, the 
representation of women in the Coast Guard's Officer Corps, 
though, is still lower--right?--other than the Marine Corps. So 
let me ask you this, what steps would you take as Commandant to 
address that disparity and ensure women are represented at all 
levels of leadership in the Coast Guard?
    Admiral Schultz. Well, Senator, we are currently underway 
with a Women's Retention Study under the contract arrangement 
with RAND, and we are hoping that will help us inform why women 
may not be staying with the service as long as their male 
counterparts. You have my commitment to understand the 
causative factors that shape that. You have my commitment to 
understand--you know, to work on those places where we can 
shape organizational and cultural behaviors that possibly are 
impediments to women feeling that the Coast Guard can be a 
viable career of, you know, whatever duration they so choose 
that's compatible with their other life choices.
    Senator Cortez Masto. Thank you.
    Senator Wicker. When is that study due, Admiral?
    Admiral Schultz. Sir, I have to circle back on the actual 
due date. We are doing the listening groups all over the Coast 
Guard right now, Senator. So I will circle back with your staff 
on the timeline there.
    Senator Wicker. And Senator Cortez Masto's staff.
    Admiral Schultz. Absolutely, Mr. Chairman.
    Senator Cortez Masto. Thank you. I know the Coast Guard has 
been working closely with Colombia and Mexico on drug 
interdiction efforts, which you yourself have had a key role 
during your time at SOUTHCOM. What is your assessment of those 
partnerships? And can they be expanded, or should they be 
expanded?
    Admiral Schultz. Senator, we are, in fact, working with 
SEMAR, the Mexican Navy, and other elements of the Mexican 
government, and with the Colombians. The Colombians are 
terrific partners, maybe the bright spot partnership in Latin 
and South America among--on a host of issues.
    Can we expand on that? Absolutely. We're currently involved 
in an ongoing operation working with SEMAR and the Colombian 
Navy, and that we've had success to date on that. You have my 
commitment. Admiral Duran, who is now the CNO of the Colombian 
Navy, I've known him for many years, Admiral Soberon will be 
turning over this summer. But I'm sure we will continue to 
enjoy a terrific level of respect and mutual cooperation with 
the Mexican Navy.
    So I think there are opportunities to build on success and 
include their contributions from a trilateral, multilateral 
framework to get after this scourge that ends up on American 
streets. And it's also destabilizing to their countries.
    Senator Cortez Masto: Right. Thank you very much.
    Admiral Schultz. Thank you, Senator.
    Senator Cortez Masto. I understand the Coast Guard is 
planning to acquire an unmanned intelligence platform for its 
national security cutters. How will a drone capability support 
the Coast Guard in carrying out its various missions?
    Admiral Schultz. Senator, we have been involved with some 
testing of small unmanned aerial systems on the back of our 
national security cutters. They have proven incredibly capable. 
I was talking to one of the skippers, the captains of that 
ship, and they don't want to go downrange without that 
additional capability. It's that strong and that much of a 
game-changer. Hopefully, this fall here we'll actually be 
awarding a contract in response to proposals from industry to 
actually field that capability on the backs of all our national 
security cutters.
    Senator Cortez Masto. That's great to hear, particularly 
since Nevada is one of the testing sites for these unmanned 
vehicles and drones that we see.
    So thank you again for your commitment. And 
congratulations. And I look forward to working with you once 
you are appointed.
    Admiral Schultz. Thank you, Senator. We look forward to 
working with you as well, ma'am.
    Senator Cortez Masto. Thank you.
    Senator Wicker. Thank you, Senator Cortez Masto.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    And, Admiral, congratulations on your nomination.
    Specifically, the National Defense Authorization Act of 
2017 included a provision to expand military family leave 
policies. Has the Coast Guard implemented this yet?
    Admiral Schultz. Senator, we are working on the policy 
aspects of that. We are matching steps with DoD, specifically 
the Navy. The NDA language is very favorable for our families, 
for our members, and we're very appreciative of the support of 
Congress on that front. That will include maternity leave, 
paternity leave, adoption leave. It increases the accessibility 
of that to our members. And I think at the end of the day, our 
members will be well served by that. And I appreciate your 
personal commitment there.
    Senator Cantwell. So what can we do to make sure that the 
Coast Guard leads on this, given the number of mid-career women 
officers that you're losing? What can we do not just to wait 
for other branches to lead?
    Admiral Schultz. Well, ma'am, the wait I think is we're 
talking months. We're not talking a long wait here. We are 
looking to implement this--anything that regards entitlements 
being one of the five armed services, we generally try to do 
that in lockstep with the other services because it just makes 
sense. We always talk, ``Look what the Navy did or what DoD 
did. We're funded below their levels of readiness.'' It's sort 
of a parallel construct, ma'am. I don't think we're talking 
more than a couple months to get our policy on the street and 
start to benefit these Coast Guard families.
    Senator Cantwell. But you do probably--do you have more 
women than the other branches?
    Admiral Schultz. Senator, I don't have those numbers to 
answer that.
    Senator Cantwell. OK.
    Admiral Schultz. We have about--our percentage of women in 
the ranks is in the high teens. We have opportunity to increase 
those numbers, ma'am.
    Senator Cantwell. OK. That's overall Coast Guard number or 
are the officer----
    Admiral Schultz. That is out in our listed ranks, ma'am. 
Our officer corps, I've got to circle back with you on that.
    Senator Cantwell. OK.
    Admiral Schultz. I cited a number before. I think that came 
into our Academy were about 40 percent female cadets. Yes, 
ma'am.
    Senator Cantwell. That's the number I wanted to get at, 40 
percent----
    Admiral Schultz. Close to that. Yes, ma'am. Just shy of 
that.
    Senator Cantwell.--which I think is great. That's why we 
want to retain it.
    Admiral Schultz. Absolutely. And we are doing that, that 
retention study, and we want those women to come into the 
service and we want them to stay in the service.
    Senator Cantwell. I'm pretty sure that's--yes.
    Admiral Schultz. We want the service to be compatible with, 
you know, with other lifestyle choices they make and families 
and things like that.
    Senator Cantwell. Yes.
    Admiral Schultz. We've got some work to do there, ma'am.
    Senator Cantwell. Thank you. Thank you. I also wanted to 
ask you about the POLAR STAR, which returned last month 
following its deployment to Antarctica. The vessel experienced 
engine failure and two major flooding incidents. So a new 
icebreaker will not be commissioned and operational until 2023. 
Do you agree the Coast Guard needs to keep the POLAR STAR in 
service until the new icebreaker is operational?
    Admiral Schultz. Senator, absolutely. I think we're looking 
at about a $75 million investment of increments of about 50 
million a year over the coming 5 years to keep the POLAR STAR 
in the game. I anticipate POLAR STAR will probably be heading 
to the high latitudes in the Antarctic to break out McMurdo on 
an annual basis. But we are absolutely committed to that 
bridging strategy until we can field new icebreakers.
    Senator Cantwell. So what is that plan for extension? What 
does that look like?
    Admiral Schultz. Well, ma'am, the ship is in Mare Island 
Shipyard today, got there a couple weeks ago. She's getting 
ready to--it will be a long projected--protracted maintenance 
period. And we're looking at potentially a multiyear vehicle so 
it's a little more predictability, we can negotiate, you know, 
better stuff there.
    There's obviously Federal acquisitions contracting law that 
we have to stay in compliance with, but we're working that. But 
I think I can report back to you probably in the coming months 
here that we will probably have a plan that looks like a 
multiyear contract to keep POLAR STAR in service and bridge 
that gap until the heavy icebreaker is on the waterfront in 
2023.
    Senator Cantwell. Great. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Cantwell.
    Senator Capito.

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you, Admiral, for coming. Thank you 
for the visit to my office. And I would like to start off by 
thanking you for serving and your long years of service. It's 
very much appreciated by many of us.
    We discussed in West Virginia, you know, there are a lot of 
core functions of the Coast Guard that we all think about when 
we think about the Coast Guard. Of course, it's mostly being on 
ships protecting the waterways and our waters, but you also 
have underpinning functions that a lot of which are performed 
in the State of West Virginia. So we have our Operations 
Systems Center of the Coast Guard, we have the National Vessel 
Documentation Center in Falling Waters, and I think you have 
one other facility there as well. Could you speak to the 
importance of those functions as an overall part of the Coast 
Guard mission?
    Admiral Schultz. Well, Senator, thanks for the question and 
the opportunity to meet with you a couple weeks back. 
Obviously, the Ops Systems Center underpins our computer 
capabilities, so that's a critical space for us. Its location 
in West Virginia suits our needs very well. And that National 
Vessel Documentation Center, we are in that, from our 
regulatory roles here, providing mariner credentials at the 
National Maritime Center and the National Vessel Documentation 
Center for documented vessels. Those are essential roles 
enabling functionalities for the maritime nation that we are.
    Senator Capito. On the Documentation Center, do you 
coordinate with Homeland Security on that? I know it's not a 
shared function, but is that something where you're working 
together on because obviously that has a lot to do with our own 
homeland security.
    Admiral Schultz. You know, Senator, being one of the 22 
components within the Department of Homeland Security, I'm not 
sure of that interface there, but I will certainly delve into 
that and circle back with you on that, ma'am.
    Senator Capito. I know that you talked about drug 
interdiction as a function of the Coast Guard's 
responsibilities. This is important to many of us. Obviously, 
it's important to our Nation. I think when we talked in my 
office, you talked about getting a couple new vessels that 
would help with interdiction. Could you talk about that a 
little bit? And I think in response to Senator Hassan, you 
might have mentioned that fentanyl probably is not coming over 
in ships because it would be smaller portions, is that correct? 
Could you kind of reiterate that response?
    Admiral Schultz. Yes, ma'am. First off, Senator, with the 
support of the Congress and the administration, we have been 
fielding new assets. We're on a fairly healthy trajectory for 
recapitalizing, you know, in some cases, ships that are more 
than a half century old here.
    The national security cutters, Senator Wicker asked me a 
question earlier about their suitability, their capability. 
They're fantastic ships. The omnibus here for 2018 included 
funding for the tenth and eleventh national security cutters. 
That was a program of record of eight ships. So that will 
enhance our capacity at the end of the day to get after the 
illicit trafficking of narcotics and other commodities at sea.
    Regarding the fentanyl, we are not seeing much movement of 
fentanyl in the maritime spaces today, ma'am. It's--you know, 
the quantities are much smaller. Bulk cocaine, you know, 
obviously is moved by--predominantly moved by a small Panga, 
it's a go-fast vessel, sometimes through a very small 
percentage of fishing vessels, sometimes these semi-submersible 
submarines. Fentanyl, you know, a cartel is essentially an 
individual in their house with their laptop computer using the 
U.S. mail system to deliver very small quantities. I mentioned 
earlier, you know, a sugar- or Equal-sized packet is hundreds 
of hits of fentanyl.
    So to date, we have not seen that in the maritime spaces. 
Could it be moved at sea? Possibly. It's so small, we have not 
encountered that at sea yet, ma'am. But we are committed to 
supporting the Federal Government, the whole-of-government's 
response to the opioid crisis. I think we're sort of putting 
the brushstrokes on what the Coast Guard's appropriate role in 
that mission space would be, ma'am.
    Senator Capito. I think you also mentioned that you're 
interested in and have room for growth. How are you seeing your 
recruitment efforts just in general? Are you planning an 
accelerated rate of recruitment to get your numbers up? How are 
you looking? Are people joining or are you having to really 
beat the bushes to find people that are interested? They don't 
maybe understand the future and current mission of the Coast 
Guard? How are you all approaching that?
    Admiral Schultz. Senator, I would say the relevance of the 
United States Coast Guard to the safety and security of the 
Nation has never been higher. Regarding recruiting, we're 
probably bringing in the brightest young men and women that the 
service has seen. So it's terrific men and women coming to the 
Coast Guard.
    Back a short 5, 6 years ago, our enrollment at our single 
source of recruiting enlisted members at Cape May was throttled 
back to about 1,500 or 1,800 candidates a year, recruits a 
year. We're trying to steady the ship at about 4,000 Active 
Duty recruits a year, 400 Reserve recruits. We've been meeting 
those targets.
    We had to--we had made some reductions here in past years. 
I talked earlier about the operational side of the budget, and 
sometimes you're forced to make choices. We had cut back 
recruiting. We have brought recruiters back. We're looking to 
get those recruiters back on budget. We are sort of carrying 
them as support allowance billets here, but we're going back on 
budget for I think it was an approximate number, around 50 
recruiters.
    So I think our recruitment is at a healthy pace. We are 
finding great kids on the streets of America. But if you look 
across all the services, if you look at the population, it's 
about 25 to 30 percent of the kids are eligible for service 
when you look at, you know, weight requirements, mental health 
requirements, the level of academic preparation, it's not a 
huge number to recruit from, but we are hitting our numbers, 
we're bringing great kids into the Coast Guard, and I think 
we're in pretty solid shape there, ma'am.
    Senator Capito. Thank you. Thank you very much.
    Admiral Schultz. Yes, ma'am.
    Senator Wicker. Thank you, Senator Capito.
    Senator Cruz.

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Thank you, Mr. Chairman.
    Admiral, welcome.
    Admiral Schultz. Senator, good to see you again.
    Senator Cruz. Good to see you. Thank you for being here. 
Congratulations on your nomination.
    Let me just take a minute just to thank you, thank you 
personally, and thank the incredible heroes, the men and women 
of the Coast Guard. You're called upon to do an incredibly 
difficult job each and every day, but it was never more 
difficult or more important than during the ravages of 
Hurricane Harvey. And the job that the Coast Guard did Texans 
saw firsthand. In Texas, over 11,000 people were rescued. Over 
1,300 pets were rescued. And not only that, there are over 
2,500 coastguardsmen who live in areas of Texas impacted by the 
storm. Of them, at least 51 of them suffered catastrophic 
damage to their own homes, and 124 others reported property 
damage, and yet over and over again we had heroes who their own 
home was underwater, and yet I met with one young Coast Guard 
pilot who hiked out through waist-high water to a parking lot 
to go be picked up by a chopper to go rescue others even though 
his own home was underwater.
    I've really been blessed to spend significant time with the 
Coast Guard swimmers and pilots. And just on behalf of the 
people of Texas, I want to say thank you for the extraordinary 
job the Coast Guard did during our time of need.
    Admiral Schultz. Senator, thank you for that. And it was 
good to see you on the ground. We saw too much of each other, 
but I think it meant a lot to our men and women that you were 
at our facilities, you were on the hangar decks shaking hands 
with those, you know, rescue swimmers, those wrench-turners, 
the people in the command centers. It was an unprecedented 
level of challenge down there. And I'm very proud of the men 
and women of the Coast Guard, but it's very reassuring here 
that you sort of recognized what a unique set of circumstances 
there were. So thank you for your continued support there.
    Senator Cruz. It was extraordinary bravery, and the entire 
state is grateful for it.
    You know, I would ask, looking back now, now that hurricane 
is in the past, from your perspective, what were the lessons 
learned from Harvey and Irma and Maria? We had a hurricane 
season that I hope we don't repeat anytime soon. What lessons 
do you think the Coast Guard has learned in terms of how to 
handle those challenges even better?
    Admiral Schultz. Senator, I appreciate that question. It's 
a great question. I think what we realized, we were about 7 
weeks in the thick of those four major hurricanes, and that 
challenged the organization. We deployed about 3,000 people, 
about 2,000 of which are Active Duty Coast Guard men and women 
from other locations. In New England, where we normally have a 
three-helicopter station, a three-fixed-wing station, and an 
air station at Cape Cod, we drew that down to one aircraft. We 
took risks there. We closed down seasonal facilities in the 
Great Lakes to draw Coast Guard men and women in from that 
region. We brought folks from as far away as Alaska and Hawaii 
to support the efforts down there.
    So we took tremendous risks in other parts of the Coast 
Guard. You know, negotiated, thoughtful risks, I was never 
uncomfortable, I don't think we put my PACAREA colleague in a 
place of discomfort, but had that been a Super Sandy type 
series of events that went on--and it has gone on. I don't want 
to diminish the Commonwealth of Puerto Rico is still 
struggling. People don't have power. Our Coast Guard men and 
women have challenges. But had that been more Sandy-like versus 
an intense 7-week period, I think our 6,200 number Reserve 
force would prove inadequate. We're trying to plus those 
numbers up.
    Our Commandant has talked about needing to grow the 
Reservists about 1,100 in the coming years. I absolutely share 
that commitment. I think we're at a critical low point. Back 
when I used to do legislative affairs work, we were trying to 
get to a 10,000 level of reservists. We're at about 8,100. This 
was about, you know, 13, 14 years ago. Right now we're 
authorized about 7,000. We need to get above that 7,000 level 
to be the ready, relevant, responsive force that America needs, 
sir.
    In terms of social media, you know, we found as the 9/11 
system collapsed in use and in the outlying areas, folks were 
going to social media to call the Coast Guard, we were able to 
adapt and improvise and meet those demands, but we've got to 
look at that and what our approach is, you know, not just in 
the Coast Guard, but in the emergency support functions writ 
large, sort of whole-of-government. We don't have the staffing, 
the manpower, all over the country to respond to social media 
cries for help. We did there. So we're working on that. We're 
working on our internal policies.
    So a lot of lessons learned, sir, from that, but it's 
ongoing. We're trying to be sure we're ready for this upcoming 
hurricane season, which is right around the corner.
    Senator Cruz. Well, and I would also point to IT 
infrastructure. I know the T-1 line went down----
    Admiral Schultz. Yes, sir.
    Senator Cruz.--in the headquarters in the midst of that, 
and you guys innovated and dealt with it anyway, but it 
obviously raises a question going forward of having a backup to 
prevent it from going down.
    Admiral Schultz. And, Senator, if I could, you were at 
Houston. That is a new facility that came from previous years' 
supplemental fundings from other hurricane damage, Rita and--I 
think it was Wilma and Rita that was the genesis of the funds 
there. That's as good as it gets for us. Many of our facilities 
would not have endured as well or had the resilience that we 
had in Houston to support that level of operation. So that 
continued support from the administration and Congress to beef 
up our resilience and get after some of these facilities that 
are very aged would be very beneficial to our readiness for the 
Nation.
    Senator Cruz. And, Mr. Chairman, if I could ask one more 
question----
    Senator Wicker. Certainly.
    Senator Cruz.--which is it has been an ongoing concern of 
mine, the lack of a reliable backup for GPS. We rely on GPS for 
an enormous amount both to defend our Nation and on the 
commercial side. How big a concern is the lack of a backup for 
GPS? And what do you think Congress should do about it?
    Admiral Schultz. Well, Senator, I think the reliance of 
where we are today in 2018 on GPS, I don't think any of us 
envisioned that. The Coast Guard is one of many stakeholders 
working within our Department. DOT, DoD, I think there's an 
assessment of the various segments that are reliant on that. 
There's ongoing work. There's a National Executive Committee 
that's focused on that. We're a contributor to that. I think we 
were awarded about $500,000 from the Congress to look at 
jamming capabilities that are out there to shut down GPS in the 
maritime domain, sir.
    So I would say I share your concern. We are an involved 
participant and stakeholder to a broader whole-of-government, 
that EXCOM, solutions set here that will hopefully figure out a 
way forward. And I think the Congress is absolutely in the 
thick of that, Senator.
    Senator Cruz. Well, I look forward to continuing to work 
with you.
    Admiral Schultz. Thank you, sir. We're committed to working 
with you on that.
    Senator Cruz. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Cruz.
    Senator Cortez Masto, you don't have any follow-up 
questions, do you?
    [No audible response.]
    Senator Wicker. I can report that Chairman Thune hopes to 
place Admiral Schultz on our next markup. That being the case, 
we need to modify our normal procedure about leaving the record 
open. So we'll only leave the record open through Thursday of 
this week, April 19. During this time, Senators are asked to 
submit any questions for the record.
    And, Admiral, do you think you could get the answers to 
these written questions back to the Committee no later than 
Monday, April 23?
    Admiral Schultz. Chairman, you have mine and Admiral 
Zukunft's full commitment to be responsive to that request.
    Senator Wicker. Thank you. Very good. And I think it's safe 
to say that the prospects of your confirmation are pretty darn 
good.
    So thank you for your appearance today. I appreciate the 
cooperation of so many members of the full Committee. This 
hearing is now adjourned. Thank you.
    Admiral Schultz. Thank you, Senator.
    [Whereupon, at 11:38 a.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Roger Wicker to 
                      Vice Admiral Karl L. Schultz
    Question 1. Admiral Schultz, The Coast Guard's counter drug mission 
is becoming much more complex than even just a few years ago. 
Transnational criminal organizations are utilizing much more advanced 
semi-submersible vessels, as well as remotely operated vessels, that 
are able to enter U.S. waters, as well as our largest ports, 
undetected.
    What disruptive autonomous underwater, surface, or hybrid solar, 
wind and electric vessels are you exploring to combat this assault (TCO 
drug trade) on our shores and in our ports?
    Answer. The FY 2018 appropriation included funding to conduct a 
pilot program studying new technologies, such as autonomous vessels, to 
improve our maritime domain awareness across our mission sets.

    Question 2. Does the Coast Guard currently have the resources to 
test, evaluate and integrate disruptive technologies like autonomous 
vessels to support the Coast Guard's counter drug mission at the Mona 
Passage, off the coast of San Diego and the Gulf of Mexico?
    Answer. Given the vast maritime domain and broad mission sets for 
which the Coast Guard is responsible, autonomous aviation, surface, and 
subsurface assets may be part of a comprehensive solution to combatting 
smuggling activity conducted by Transnational Criminal Organizations.
    The FY 2018 appropriation included funding to conduct a pilot 
program to study some of these technologies.

    Question 3. If given adequate resources and funding, would the 
Coast Guard benefit from adopting these new technologies to combat the 
flow of illegal narcotics across our maritime borders?
    Answer. We are currently exploring how new technology can best be 
applied to improve our performance across all missions.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                      Vice Admiral Karl L. Schultz
    Question 1. Have Coast Guard vessel deployments increased to the 
Arctic, or are they scheduled to increase? And if not, why not?
    Answer. The Coast Guard has increased cutter deployments to the 
Arctic for the annual Operation Arctic Shield, focused on promoting 
national interests and sovereignty throughout the Arctic. The increased 
level of human activity in the Arctic continues to increase the 
probability of a maritime incident and requires a heightened Coast 
Guard presence to monitor activity, respond to incidents, enforce 
regulations and support national interests. The Coast Guard Heavy Polar 
Icebreaker acquisition program is the first crucial step to providing 
year-round assured access to the Arctic.

    Question 2. The closest Coast Guard homeport to the Arctic Circle 
is over 1,500 miles away from the operating area. The Coast Guard is on 
record expressing a need for a strategic Arctic port. How beneficial 
would such a port be for the Coast Guard? And what have your 
communications been with the Army Corps of Engineers and others in 
transmitting this demand signal?
    Answer. A strategic Arctic port would help assure our Nation's 
ability to maintain U.S. access throughout the Arctic region to more 
quickly respond to current and future national security demands in the 
Arctic, to preserve its economic interests, and to exercise U.S. 
sovereignty.
    Specifically, a strategic Arctic port capable of accommodating USCG 
and DoD surface assets would reduce the distance U.S. vessels currently 
travel for logistical support; it would increase the time these assets 
can perform missions in the Arctic region; and it could serve as a 
forward staging base and a hub for missions to advance U.S. national 
security interests.
    For the development of the Coast Guard's February 11, 2014 Report 
to Congress on the Feasibility of Establishing an Arctic Deep-Draft 
Seaport, the Coast Guard consulted with the U.S. Army Corps of 
Engineers (USACE) as well as the U.S. Navy and the U.S. Maritime 
Administration. This report addressed the feasibility of establishing a 
deepwater seaport in the Arctic to protect and advance strategic United 
States interests within the Arctic region. Subsequent to that 
collaboration, Section 1202(c) of the Water Infrastructure Improvements 
for the Nation (WINN) Act directed the Army Corps to ``. . . consult 
with the Secretary of the department in which the Coast Guard is 
operating to identify benefits in carrying out the missions specified 
in section 888 of the Homeland Security Act of 2002 (6 U.S.C. 468) 
associated with an Arctic deep draft port.'' The Coast Guard has had 
numerous exchanges with the USACE regarding this study under the WIIN 
Act, to include the exchange of information related to vessel transits 
and automatic identification system data.

    Question 3. For a number of years there has been a military housing 
shortage in Kodiak. The recently passed Ominbus had funding for Coast 
Guard housing. What is the current situation in Kodiak?
    Answer. Currently, Coast Guard housing in Kodiak maintains full 
occupancy.

    Question 4. Where does Alaska writ large stand in line for 
additional Coast Guard infrastructure funding?
    Answer. Infrastructure funding priorities are based on numerous 
factors to include service location need as well as privately owned 
options. Future projection shows a possible deficit in Alaska housing. 
Currently, my staff is exploring ways to decrease this deficit, 
including a phased approach to address both current and future needs as 
additional assets are homeported in Alaska.

    Question 5. In 2016 the Coast Guard finalized a rule that requires 
the use of biometric readers to verify TWIC (Transportation Worker 
Identification Credential) cards. It is my understanding that both 
industry and Coast Guard have acknowledged this difference and Coast 
Guard has indicated to industry and the regulated community that there 
would be a delay.
    The compliance deadline of August 23, 2018 is fast approaching. And 
these facilities, having relied on assurances from Coast Guard itself, 
will not be able to comply.
    Did the rule that was finalized in 2016 differ from the proposal 
put forth in 2013?
    Answer. The language in the Final Rule was slightly different than 
what was in the Notice of Proposed Rulemaking, and that difference 
created some uncertainty in the applicability of the rule.

    Question 6. What is the status of the rule implementation? Will 
there be a delay? And will industry be consulted before a new 
compliance date is made?
    Answer. In consultation with DHS, the Coast Guard diligently 
considered a host of options regarding the TWIC Reader Rule. We 
evaluated all options and ultimately initiated a rulemaking project to 
provide clarity to the affected population. The Office of Management 
and Budget is currently reviewing the Notice of Proposed Rulemaking. 
Once published in the Federal Register, the public will have the 
opportunity to comment on the Notice of Proposed Rulemaking.

    Question 7. Is there a training shortfall within the Coast Guard to 
provide Coast Guardsmen the needed authorities to conduct maritime 
interdiction operations?
    Answer. There are no known training shortfalls that would limit our 
authorities to conduct maritime interdictions.

    Question 8. What are the Coast Guard's approval authorities for 
escalation of force?
    Answer. Collectively, 14 U.S.C. Sec. 89(a), 14 U.S.C. Sec. 637, and 
14 U.S.C. Sec. 2237 provide a triad of authority, indemnification, and 
criminal offense designed to support USCG efforts to stop non-compliant 
vessel when conducting interdiction.

    Question 9. Does the Coast Guard have a training, rank, and/or 
experience level problem that would prevent vessel commanders from 
making escalation of force decisions on the spot (not including self-
defense)? How can this be addressed?
    Answer. No. The Coast Guard does execute many bi-lateral and multi-
lateral agreements that sometimes require legal review and senior level 
approval to ensure interdictions are conducted according to those 
agreements when operating on the high seas.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim Inhofe to 
                      Vice Admiral Karl L. Schultz
    Question 1. As Chairman of the Readiness Subcommittee of the Senate 
Armed Services Committee, I know that our military was gutted under 
President Obama. Under sequestration, Defense accounted for 50 percent 
of the cuts, but only 16 percent of spending. As a result, our military 
equipment is aging and our base infrastructure requires critical 
maintenance and upgrades. We have seen impacts on personnel, pilots are 
leaving the military because they are not getting flight hours to 
maintain their skills. Today, we are fixing these problems--in large 
part because our Senior Military leaders have finally acknowledged 
there is a problem. We finally have an Administration that will support 
the necessary funding to rebuild our military--and Congress went above 
and beyond the President's request in the funding bill to give our men 
and women in uniform the resources required to answer the call quickly 
and effectively. Now, because the Military will always make it work, it 
took a long time before we saw the impact to readiness that I just 
described. As you well know, the Coast Guard has a unique 
responsibility for both Homeland Security and non-Homeland Security--in 
fact it has 11 statutory missions.
    How would you characterize the state of readiness for the United 
States Coast Guard today?
    Answer. The Coast Guard appreciates Congress's support to rebuild 
the readiness of our Service. The CG, like the other Armed Forces, has 
faced significant challenges under the Budget Control Act caps and 
faces challenges associated with degraded readiness. Unfortunately, 
persistent underfunding has eroded readiness and forced the CG to 
prioritize the most critical near-term operations and direct support 
activities at the expense of modernizing, advancing capabilities, and 
building capacity to keep pace with the proliferating threats we face 
as a Nation. Specifically, we face:

        Aging assets with significantly increasing maintenance costs;
        Lost purchasing power due to the lack of non-pay inflation;
        Deferred maintenance across all asset portfolios and shore 
        infrastructure;
        Strained and undersized workforce;
        Emerging requirements (e.g., cyber-security, marine safety 
        capacity).

    Question 2. When your predecessor testified before this Committee, 
I asked him about the condition of the Coast Guard's Inland River 
Tenders. These vessels maintaining navigation aids and buoys marking 
water channels. These channels must be marked for river barges to 
safely move grain, fertilizer, steel, and refined petroleum along 600 
miles of river from the Port of Catoosa in Tulsa to New Orleans and 
beyond. These vessels are old, the Coast Guard vessel responsible for 
navigation aids in the Arkansas River was built in 1965. Coast Guard 
Reauthorization Act that passed this Committee included my provision 
asking the Coast Guard for a report on an acquisition strategy for new 
river tenders.
    Can you discuss the current acquisition plan and whether there's 
any opportunity to accelerate the acquisition of these sorely needed 
replacement ships?
    Answer. We are incredibly thankful to Congress for the additional 
funding in FY18 to accelerate the recapitalization of our inland fleet. 
The program entered the ``Analyze/Select'' phase (ADE-1) in December 
2017 and is planning to engage with industry and other stakeholders to 
find efficiencies that can further accelerate the program. Based on the 
additional funding provided in FY18, we are working to accelerate via 
the following initiatives:

        Accelerating design studies and leveraging existing work with 
        external agencies (i.e., Army Corps, etc.),
        Advancing the completion of critical acquisition milestones and 
        Alternative Analysis studies,
        Hiring necessary personnel to work toward an accelerated 
        acquisition timeline, and
        Engaging with industry to leverage their collective knowledge 
        and support.

    Question 3. Are you working with other agencies, like the Army 
Corps of Engineers, to determine if you can incorporate existing vessel 
designs to make recapitalization less expensive and time-consuming?
    Answer. Yes. The Coast Guard is working with the Army Corps of 
Engineers and industry to develop ``indicative'' designs that will meet 
the government's operational requirements. These designs will leverage 
existing state of the market technology that will provide an affordable 
and highly capable material solution to meet the Nation's needs within 
the Marine Transportation System.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Todd Young to 
                      Vice Admiral Karl L. Schultz
    Question 1. Vice Admiral, on February 15, 2018, Admiral Tidd, 
Commander, United States Southern Command, testified before the Senate 
Armed Services Committee. During the course of the hearing, Ranking 
Member Reed asked Admiral Tidd to confirm what percentage of shipments 
thought to be containing illicit material were able to be interdicted 
using currently available resources. Admiral Tidd testified that they 
were only able to interdict about 25 percent of the vessels 
transporting illicit materials.
    First, do you agree with Admiral Tidd's assessment?
    Answer. Yes. The Coast Guard has significantly increased our cutter 
presence in the transit zone since 2014, however, in that same time, 
the TCO shipment of illicit material, specifically cocaine, has 
increased dramatically.
    While we have available intelligence that allows us to know when 
many of these movements take place, we do not have the number of assets 
available to achieve the interdiction rates directed by national 
policy.

    Question 2. Second, what role does the Coast Guard specifically 
play in the interdiction of these shipments?
    Answer. We are the primary agency responsible for interdicting 
vessels on the high seas. We are uniquely equipped with Airborne Use of 
Force Packages onboard cutters deploying to the Eastern Pacific where 
the majority of cocaine is shipped via go fast and low-profile vessels. 
Our National Security Cutters (NSCs) are also equipped with organic 
intelligence collection capability which further facilitates our 
efforts to combat TCOs.

    Question 3. Third, what specific assets does the Coast Guard need 
to interdict more illicit shipments? (For each additional asset, please 
describe how this additional asset would specifically change the 
percentage of illicit shipments we could interdict.)
    Answer. The Coast Guard's aging Medium Endurance Cutters are an 
average of 35 years old, but conduct 40 percent of the interdiction in 
the offshore areas. I am committed to the continuing the 
recapitalization of the ships with the Offshore Patrol Cutter (OPC), in 
order to make sure we are able to continue targeting TCOs where they 
are most vulnerable--at sea--in the years to come. The FY18 
appropriation includes funding for construction of the 1st OPC and long 
lead time material for the 2nd OPC.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                      Vice Admiral Karl L. Schultz
    Question. Combined Fiscal Year 2018 and the proposed Fiscal Year 
2019 budgets will fund the first two offshore patrol cutters and long-
lead-time materials for a third. These new vessels will replace aging 
cutters. How will these new vessels, which are being built in Florida, 
allow you to better serve the American people?
    Answer. The Offshore Patrol Cutter (OPC) will be the workhorse of 
the Coast Guard's offshore fleet for decades to come; bridge the 
capability between the National Security Cutter (NSC) and the Fast 
Response Cutter (FRC), and replace the aging Medium Endurance Cutter 
(MEC) fleet. OPCs will support the Coast Guard's Western Hemisphere 
Strategy and help protect the southern border from dangerous criminal 
activity carried out by transnational criminal organizations (TCOs) in 
the form of illegal narcotics trafficking, human smuggling and illegal 
immigration. OPCs will serve as Mobile Command & Control platforms for 
surge operations, including hurricane response, events of national 
significance and mass migration. Finally, OPCs will support domestic 
and foreign policy objectives through defense operations, security, 
economic, and humanitarian efforts.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                      Vice Admiral Karl L. Schultz
    Question 1. The National Defense Authorization Act for 2017 (P.L. 
114-328) was signed into law on December 23, 2016. This legislation 
included authorities to expand military family leave policies for the 
birth or adoption of a child. Specifically, the NDAA authorizes:

  <bullet> An increase of secondary caregiver (same sex spouses, 
        fathers) family leave, for the birth of a child from 10 days to 
        21 days.

  <bullet> An increase in primary caregiver family leave for the 
        adoption of a child from 21 days to 6 weeks.

  <bullet> Elimination of provisions allowing only one member of the 
        armed forces family leave when two members of the armed forces 
        are pursuing adoption of a child.

  <bullet> Authorization of 21 days of family leave for secondary 
        caregivers for the adoption of a child.

    In March 2017, I sent the Coast Guard a letter requesting these 
expanded benefits be swiftly implemented. More than a year has lapsed 
since I sent this letter and the Coast Guard and there has been no 
implementation or plan to expand these policies.
    What is your timeline and plan to implement these expanded family 
leave policies?
    Answer. The Coast Guard is preparing to implement the new caregiver 
leave policies of the 2017 NDAA. We are in direct coordination with the 
Department of Defense--specifically the Navy--to ensure that this 
implementation provides parity across the Services and is in alignment 
with Title 10 and Title 14 requirements. We anticipate promulgating our 
new policy simultaneous to the Navy's.

    Question 2. Does the Coast Guard have the authority to implement 
these expanded family leave policies on their own or does the Coast 
Guard have to wait for DoD implementation before moving forward?
    Answer. In accordance with 10 USC 701 and 14 USC 431, the CG will 
wait for DoD implementation before moving forward.

    Question 3. The Coast Guard operates 52-foot Special Purpose Heavy 
Weather boats on the large coastal bars of Washington and Oregon. These 
boats were purpose built for the Pacific Northwest, and are all over 60 
years old. The 47-foot motor life boat does not have nearly the 
operational capabilities of the 52-foot Special Purpose Heavy Weather 
boats.
    Do you agree that the 47-foot motor life boat is not a suitable 
replacement vessel for the 52-foot Special Purpose Heavy Weather boat?
    Answer. The 52-foot MLB is a reliable vessel that has served us 
well for over 50 years, and it has specialized capabilities, especially 
as it relates to towing capacity and seakeeping. There is currently no 
plan to take them out of service. When the time comes to replace the 
52-foot MLBs, the assets replacing them will meet all of the units' 
mission requirements.

    Question 4. Does the Coast Guard have a service life extension and 
recapitalization plan for the 52-foot Special Purpose Heavy weather 
boat?
    Answer. The Coast Guard is currently focused on executing a Service 
Life Extension Program (SLEP) for the 47-foot Motor Lifeboat (47 MLB) 
fleet. The 47 MLBs conduct the vast majority of SAR in surf and heavy 
weather conditions throughout the nation, and are approaching the end 
of their projected service lives. The 47 MLB SLEP will replace the 
engines and other major components, and is expected to extend the 47 
MLB fleet's service life by an additional 20 years.

    Question 5. If no, when will the Coast Guard develop a service life 
extension and recapitalization plan for the 52-foot Special Purpose 
Heavy Weather boat?
    Answer. We continue to operate and maintain the 52-foot MLBs, and 
there is currently no plan to take them out of service. If a 
determination is made that a replacement boat is required for the 52-
foot MLB, the Coast Guard would ensure the assets meet all of the 
mission requirements for the units.

    Question 6. In terms of surface recapitalization priorities, where 
is the 52-foot Special Purpose Heavy Weather boat on this list?
    Answer. We continue to maintain and operate the 52-foot MLBs, and 
there is currently no plan to take them out of service.

    Question 7. Maintaining the four 60 year old 52s is becoming a 
serious engineering and financial challenge. If you are confirmed, will 
you work with Congress to accelerate the acquisition timeline for 
replacement vessels for the 52-foot motor lifeboats?
    Answer. I understand the importance of providing an asset that is 
capable of operating in the extreme conditions of the Pacific 
Northwest. When the time comes to replace the 52-foot MLBs, I assure 
you that the assets replacing them will meet all of the units' mission 
requirements.

    Question 8. There are approximately only 200 surfmen in the entire 
Coast Guard and only an estimated 50 of those members are certified to 
operate the 52-foot motor lifeboat. The Coast Guard Motor Lifeboat 
School at Cape Disappointment, Washington does not have a 52-foot motor 
lifeboat to use as a training platform. How can the Coast Guard 
increase the number surfmen trained and proficient to safely operate 
and handle the 52-foot motor lifeboat? What other training resource 
gaps would you work to address as Commandant?
    Answer. The Coast Guard Motor Lifeboat School provides instruction 
pertaining to the skills and knowledge needed to operate a heavy 
weather and/or surf capable boat in those conditions. The Coast Guard 
Motor Lifeboat School does not qualify or certify students on the 47-
foot or 52-foot MLBs. Specific boat type training, qualification, and 
certification on the Coast Guard's surf-capable boats occur at the 
individual stations. The Coast Guard is in the process of reviewing its 
Prospective Surfman Program to ensure that it adequately supports the 
needs of the service.

    Question 9. Following the November 2017 Ocean, Atmosphere, 
Fisheries, and Coast Guard Subcommittee oversight hearing I submitted 
questions for the record to Admiral Zukunft what resources and funding 
the Coast Guard needed to support research and technology development 
to be better prepared to prevent and more effectively respond to a tar 
sands oil spill. The answer I was provided detailed what the Coast 
Guard is currently doing but, did not articulate the resources or 
funding needed for continued investment.
    What specific funding does the Coast Guard need to adequately 
invest in technologies to more effectively respond to a tar sands oil 
spill?
    Answer. Oil pollution research is conducted by various Federal 
agencies, including the U.S. Coast Guard, as well as industry, 
international, state and academic institutions. The Coast Guard 
coordinates Federal research through the Interagency Coordinating 
Committee on Oil Pollution Research (ICCOPR) and leverages the multiple 
partners in order to advance the collective body of knowledge to 
increase marine environmental response knowledge and capabilities 
across all stakeholders. Neither the Coast Guard nor ICCOPR has 
conducted an exhaustive analysis to determine what would constitute an 
adequate level of investment in technology specific to tar sands 
response. Such an investment could encompass a broad spectrum or 
technologies and capabilities, many of which the Coast Guard likely 
would not own or operate.
    The Coast Guard Research and Development Center is currently 
undertaking a project that directly contributes to improvements in 
understanding ``new oils'' for the purpose of improving prevention and 
response capabilities. The overall objective of this project is to 
identify best practices to assist Federal On Scene Coordinators' 
responses to Oil Sands spills. This project began in August of 2014 and 
is expected to continue through February of 2020, and is funded through 
an allocation from the Oil Spill Liability Trust Fund and the Great 
Lakes Research Initiative.

    Question 10. It is my understanding that the Coast Guard is the 
chair of the Interagency Coordinating Committee on Oil Pollution 
Research (ICCOPR). I am concerned that the ICCOPR lacks necessary 
funded to support projects to increase marine environmental response 
capabilities and address known research gaps. How can the Coast Guard 
improve funding to the ICCOPR? Would you consider entering into 
agreements with member agencies on ICCOPR to improve funding?
    Answer. ICCOPR itself is not funded, and does not undertake 
research projects. ICCOPR serves as the coordinating body for each of 
its 15 member agencies to routinely share information, coordinate on 
strategic direction, and provide opportunities for member agencies to 
collaborate at the project level. Individual project efforts are funded 
through each agency's own budget processes, and some member agencies 
have entered into interagency agreements. ICCOPR encourages that such 
agreements maximize efforts by all member agencies.

    Question 11. More than half the time has lapsed for the Fiscal Year 
2015-2021 Oil Pollution Research and Technology Plan. What principal 
objectives have been completed and priorities been addressed since the 
inception of the plan?
    Answer. In September 2015, ICCOPR released its FY 2015-2021 Oil 
Pollution Research and Technology Plan (OPRTP), which established a 
research framework grouped into four broad classes: Prevention, 
Preparedness, Response, and Injury Assessment and Restoration. The six 
year OPRTP further classified and prioritized research within the 
classes into 25 standing research areas (SRAs), representing the most 
common research themes encountered for oil spills. Research priorities 
were established for each SRA, for a total of 150 priorities. The 
Interagency Committee's 2016-2017 focus was to encourage the alignment 
of member agency research programs to address identified research gaps 
based on these common set of categories. During this period, the first 
two years of performance under the current OPRTP, member agencies are 
conducting research in 92 percent of the 25 Standing Research Areas. 
Further, current member research projects address some aspect of 61 
percent of the 150 research priorities identified in the OPRTP. In FY 
2018-2019, ICCOPR will analyze any gaps in addressing priorities in 
2016-2017, and determine best ways to address the gaps.

    Question 12. Will ICCOPR meet all pollution research needs, 
priorities, and goals in the Fiscal Year 2015-2021 Oil Pollution 
Research and Technology Plan by the end of Fiscal Year 2021?
    Answer. ICCOPR does not directly fund research projects, but rather 
coordinates research by the member organizations. ICCOPR does not 
undertake projects nor meet any research needs, priorities, or goals. 
The member agencies of ICCOPR use the oil pollution research and 
technology plan (R&T Plan) to provide strategic direction for their own 
programs. ICCOPR encourages all entities (e.g., government, industry, 
academia, and others) within the oil spill prevention, preparedness, 
response, and injury assessment and restoration communities to 
capitalize on the strategic direction provided by the R&T Plan (2015-
2021) to shape projects to assist in filling these gaps. ICCOPR strives 
to continue to identify emerging research areas in light of the 
changing landscape, and publish strategic direction to inform R&D 
research agendas.

    Question 13. What funding does ICCOPR or the Coast Guard need to 
meet all the research goals articulated in the Fiscal Year 2015-2021 
Oil Pollution Research and Technology Plan by the end of Fiscal Year 
2021?
    Answer. ICCOPR is not funded, but provides a coordination mechanism 
for joint research and sets strategic direction for the member 
agencies. Each member agency funds their research through their own 
appropriation process. No ICCOPR member agency has singular 
responsibility for all the research goals identified in the plan.

    Question 14. Is ICCOPR leveraging research and partnership 
opportunities with our National Labs?
    Answer. ICCOPR routinely hosts members of National Labs to speak at 
quarterly meetings, which has resulted in partnerships on new-start 
projects with the member agencies of ICCOPR.

    Question 15. If yes, what specific ongoing research projects does 
ICCOPR have with our National Labs?
    Answer. ICCOPR does not have any ongoing projects as it is an 
information sharing body only. Individual member agencies of ICCOPR 
have partnered on projects with National Labs. For example, the Coast 
Guard just completed a project with Argonne National Lab on development 
of material to absorb oil in the water column.

    Question 16. In March 2017, there were only two Oil Spill Response 
Organizations (OSROs) in Washington state classified by the Coast Guard 
as capable of responding to a non-floating tar sands oil spill. What is 
the Coast Guard doing to ensure there are enough classified OSROs and 
resources capable of responding to a non-floating tar sands oil spill 
in Washington?
    Answer. The Coast Guard is committed to ensuring that adequate 
response capabilities exist to respond to oil spills in the coastal 
zone. The physical capabilities brought to bear during a spill response 
are primarily from industry sources, whether through the Responsible 
Party or under contract to the Coast Guard under a basic ordering 
agreement. While tar sands (diluted bitumen) may initially float, 
weathering or sedimentation may eventually cause it to sink. The Coast 
Guard has classification programs for both floating and nonfloating 
oils. Currently, the Coast Guard has approved six nonfloating oil spill 
response organizations (OSROs) in Washington. Moreover, eleven 
classified oil spill response organizations (OSROs) are capable of 
responding to floating tar sands oil in the state of Washington.

    Question 17. I secured language in the Coast Guard Authorization 
Act of 2015 to extend the high volume port area in Puget Sound to 
include Port Angeles and Cape Flattery, Washington to minimize oil 
spill response and equipment deployment times. Since this change in 
designation has the Coast Guard verified that previously approved 
Vessel Response Plans are still sufficient in meeting the new faster 
response equipment deployment standards?
    Answer. The Coast Guard has verified that approved vessel response 
plans meet the new requirements in the high volume port area.

    Question 18. If yes, what was the result of this verification? Were 
any of the response plans determined inadequate for meeting the new oil 
spill response standards?
    Answer. In September 2016, the Coast Guard conducted a preparedness 
assessment visit in the State of Washington, and evaluated the Marine 
Spill Response Corporation (MSRC) and the National Response Corporation 
(NRC). These OSROs, and in particular their response resources listed 
in the Response Resource Inventory (RRI), were found to be compliant 
with the response requirements in the high volume port area.

    Question 19. If no, what is the Coast Guard's plan and timeline for 
carrying out this verification?
    Answer. N/A

    Question 20. If a vessel has a Coast Guard approved Vessel Response 
Plan that only lists OSROs capable of responding to floating oil spills 
and the vessel begins carrying non-floating oils, how does the Coast 
Guard retain oversight over the vessel to ensure the current response 
plan is updated to incorporate resources and OSROs classified to 
respond to a non-floating oil spill?
    Answer. When a vessel owner or operator wants to revise or amend an 
approved response plan, they must submit it to the Coast Guard for 
approval. This includes changes in the types of oil carried onboard 
(oil group) that may affect the required response resources.

    Question 21. Access to childcare places an unnecessary burden on 
Coast Guard families living and serving in these communities.
    What specific steps can be taken to address access to childcare 
challenges for Coast Guard families? What additional specific steps 
could be taken to improve access to childcare for families stationed at 
remote Coast Guard stations, such as Coast Guard Station Neah Bay?
    Answer. Ensuring the Coast Guard workforce has adequate access to 
programs to provide family support is a high priority for me.
    Since not all locations offer the same childcare options, Coast 
Guard families are encouraged to explore all available childcare 
options prior to finalizing a decision.

    Question 22. Has the Coast Guard conducted a nationwide assessment 
of childcare needs for members? Why or why not?
    Answer. The last national assessment of childcare was conducted in 
Fiscal Year 2004.

    Question 23. What would the Coast Guard need from Congress to 
conduct such an assessment?
    Answer. The President has recently signed the Fiscal Year 2018 
Omnibus Appropriations Act which directs the Coast Guard to conduct and 
report on the results of a survey regarding cost and availability of 
child care. Approximately $500K would enable the survey execution to be 
expedited.

    Question 24. What funding does the Coast Guard need to expand its 
childcare services it provides to members?
    Answer. Upon completion of the directed survey, the Coast Guard 
will be better suited to determine what level of additional funding may 
be needed to increase access to childcare services.

    Question 25. The Coast Guard received $150 million in the Fiscal 
Year 2018 Omnibus under the Navy's ship construction budget, to be used 
for detail design and construction of a new polar icebreaker, and an 
additional $19 million in Coast Guard's Fiscal Year 2018 budget to be 
used for setting up the Coast Guard acquisition program of record. 
Additionally, the Administration requested $750 million in Fiscal Year 
2019 for accelerated acquisition and delivery of a new heavy polar 
icebreaker. However, the new icebreaker will not be commissioned and 
operational until 2023.
    Do you agree that the Coast Guard needs to keep the POLAR STAR in 
service until the new icebreaker is operational?
    Answer. Absolutely. The availability of only one operational heavy 
polar icebreaker does not allow for guaranteed year round access to the 
Polar Regions or offer redundancy in the event of a catastrophic 
casualty in ice-laden waters. To ensure we can protect our national 
interests, assert our national sovereignty, and meet international 
commitments the Coast Guard is planning to keep POLAR STAR in active 
service until delivery of the second new heavy polar icebreaker.

    Question 26. What is the Coast Guard's specific plan for continued 
service life extension of the POLAR STAR?
    Answer. The Coast Guard is committed to keeping POLAR STAR 
operational until at least delivery of the second new heavy polar 
icebreaker. We conducted a comprehensive engineering analysis on POLAR 
STAR, which identified critical systems that must be recapitalized to 
ensure continued operations until delivery of the second heavy polar 
icebreaker. With this information, we will be conducting a phased 
Service Life Extension Project (SLEP) (executed between annual 
deployments) to replace these systems, which will ensure we continue to 
meet the Nation's needs in the remote Polar Regions while our new 
icebreakers are under construction.

    Question 27. What is the Coast Guard's plan for ensuring there is 
no gap in polar icebreaker mission support?
    Answer. The Coast Guard is committed to sustaining current levels 
of heavy polar icebreaking activities until new heavy polar icebreakers 
are delivered. To ensure we continue to meet our statutory mission 
requirements in the Polar Regions we are planning a phased Service Life 
Extension Project (SLEP) on POLAR STAR to recapitalize critical 
engineering systems, which will keep POLAR STAR operational until 
delivery of the second new heavy polar icebreaker.

    Question 28. There is a lot of congressional and administration 
support to fund a new heavy polar icebreaker for the Coast Guard. I 
want to ensure this momentum continues as we continue to recapitalize 
the United States polar icebreaker fleet. What is your plan for 
securing a fleet of icebreakers?
    Answer. We are fully committed to recapitalizing the Nation's heavy 
polar icebreaker fleet. To accomplish this in the most cost efficient 
and expeditious manner, we have joined forces with the U.S. Navy via a 
highly collaborative Integrated Program Office (IPO) where we are 
leveraging the best of industry, DoD, and Coast Guard shipbuilding 
practices to acquire new heavy polar icebreakers. On 2 March 2018, we 
released the Detail Design and Construction (DD&C) Request for Proposal 
(RFP)--nearly one month early--which will allow for the award of a DD&C 
contract in FY19 and pave the way for delivery of the first new heavy 
polar icebreaker in 2023 and follow-on hulls in 2025 and 2026. We are 
as close as we have been in over 40 years to recapitalizing our 
icebreaker fleet and continued support and investment will ensure we 
can meet the Nation's growing needs in the rapidly evolving and dynamic 
Polar Regions.

    Question 29. How many vessels does the Coast Guard need in a polar 
icebreaker fleet to adequately carry out its statutory missions, 
protect sovereignty in the Arctic, and support scientific research?
    Answer. To ensure continued performance of our vital missions in 
the Polar Regions (e.g., assertion of national sovereignty, defense 
readiness, etc.) multiple independent studies have indicated the need 
is six new polar icebreakers.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                      Vice Admiral Karl L. Schultz
    Question 1. I continue to have reservations about the efficacy of 
using limited Coast Guard resources to halt the flow of drugs into the 
United States given the low percentage of successful interdictions over 
water, and the high percentage of drugs entering the United States over 
land.
    How do you measure success in the Coast Guard's efforts to disrupt 
cartels and other traffickers in Central and South America?
    Answer. We continue to measure both cocaine interdiction rate 
compared to known flow. In FY 2017, we removed a record 223.8 MT of 
cocaine from the maritime environment, approximately 8.2 percent of the 
known flow in that year. Additionally, we improved our record number of 
708 suspects detained for further prosecution in FY 2017, and increased 
by 28 percent the number of cases referred for U.S. prosecution over 
the prior year.

    Question 2. Could you please discuss how the Coast Guard's efforts 
would be strengthened by a better resourced and staffed State 
Department, including its country teams across Central and South 
America?
    Answer. The Coast Guard works directly with our partners in the 
State Department, to facilitate engagements with our Partner Nations in 
the Eastern Pacific and Caribbean to develop, enact, and enforce bi-
lateral and multi-lateral agreements. The State Department is integral 
to the identification of opportunities for maritime law enforcement 
training teams to improve partner nations' maritime governance. In 
addition, the State Department is a key partner in facilitating 
logistics for our own assets when operating in foreign ports.

    Question 3. Can you please explain your view of how the Coast 
Guard's counter drug mission should evolve over time, including how new 
Coast Guard platforms (e.g., cutters and UAVs) might be able to shrink 
the number of resources dedicated to the counter drug mission and give 
the Coast Guard more flexibility to meet its missions elsewhere?
    Answer. The Coast Guard will continue to explore all the tools 
available to conduct efficient, comprehensive, interdiction activity. 
The pilot program of the small Unmanned Arial Vehicle on board the 
USCGC STRATTON demonstrated that new technology can provide the 
potential to increase our ability to monitor the maritime domain.

    Question 4. I understand the Coast Guard is looking at ways to 
increase its presence in the Western Pacific.
    What types of missions does the Coast Guard assess it might be best 
positioned to support in the East and South China Seas? And how might 
it collaborate with others in the Joint community, such as the Navy, to 
support broader national security objectives?
    Answer. The U.S. Coast Guard's unique authorities, capabilities, 
competencies, and partnerships enable us to meaningfully engage with 
our coast guard and navy counterparts in the Asia-Pacific region. We 
currently deploy teams, subject matter experts, and liaison officers 
throughout the region, including Vietnam, Indonesia, Malaysia, and the 
Philippines, to facilitate U.S. Coast Guard operations, improve the 
operational readiness of our international partners, and bolster 
regional maritime security. Our unique authorities and partnerships 
enable engagement with other maritime agencies to shape maritime 
governance, promote regional stability, and ensure national security.

    Question 5. What information can you provide about the Coast 
Guard's assessment of the costs and benefits of a 1.0 National Security 
Cutter presence in the Western Pacific?
    Answer. Using standard deployment models common to the Coast Guard 
and Navy, it takes approximately three National Security Cutters to 
provide a sustained 365 day per year (1.0) presence in our typical 
operating locations within the Western Hemisphere, and potentially more 
resources for an out-of-hemisphere deployment. National Security 
Cutters have conducted single deployments alongside DoD combatants in 
the Western Pacific during Cooperation Afloat Readiness and Training 
(CARaT) exercises. Conducting more joint operations in the Western 
Pacific will improve the operational readiness of the partner nations.

    Question 6. How is the Coast Guard evaluating opportunities to 
increase its presence in the West Pacific through joint patrols, ship 
rider agreements, and other collaborations with partners and allies?
    Answer. The Coast Guard works continually with our DoD partners to 
evaluate opportunities to increase presence in the Western Pacific. 
Additionally, the Coast Guard deploys teams, subject matter experts, 
and liaison officers throughout the region, including Vietnam, 
Indonesia, Malaysia, and the Philippines, to facilitate U.S. Coast 
Guard operations, improve the operational readiness of our 
international partners, and bolster regional maritime security. Our 
unique authorities and partnerships enable engagement with other 
maritime agencies to shape maritime governance, promote regional 
stability, and ensure national security.

    Question 7. At this time, what additional resources has the Coast 
Guard identified it needs to support a greater forward presence in the 
West Pacific? Which of these resources are programmed in the Coast 
Guard's budget and which are not?
    Answer. Measurable Coast Guard forward presence in the Western 
Pacific will be provided by major cutter deployments. Whether the U.S. 
Coast Guard deploys a ship to the region depends on U.S. foreign policy 
objectives and the operational availability of our largest ships--the 
National Security Cutters. This year the Coast Guard will take delivery 
of our 7th National Security Cutter, homeported in Honolulu, HI. 
Additionally the Fiscal Year 2018 Omnibus Appropriation provided 
funding for the construction of the 10th and 11th National Security 
Cutters. Personnel and Operations & Maintenance funding for these ships 
will be programmed in future budget requests.

    Question 8. The Coast Guard has a plan to bring C-130Js to Hawaii 
in the mid-2020s, but Air Station Barbers Point needs a new hangar to 
maintain them there. When is Air Station Barbers Point expected to take 
delivery of its first C-130J?
    Answer. With the support of Congress, the Coast Guard was able to 
appropriate the 15th C-130J as a part of the Fiscal Year 2018 Omnibus 
Appropriation. A 16th C-130J aircraft is required to transition Air 
Station Barbers Point from the legacy C-130H to the C-130J. Facility 
upgrades at Air Station Barbers Point have been requested in the Fiscal 
Year 2019 Presidents Budget and the construction period is expected to 
be complete in Fiscal Year 2022. Upon delivery of the 16th C-130J and 
completion of these necessary upgrades, the Coast Guard plans to 
transition to C-130J operations at Air Station Barbers Point.

    Question 9. How is the Coast Guard working with DHS, OMB, and 
others in the interagency to ensure that the currently unfunded C-130J 
hangar is on track to be constructed so the Coast Guard keeps to the 
planned delivery schedule?
    Answer. The Coast Guard conducts formal internal reviews to 
prioritize major acquisition system infrastructure and will look for 
future opportunities to fund a hangar construction project at Air 
Station Barbers Point. In the interim, to ensure there is no delay to 
the planned C-130J delivery schedule, the Coast Guard has requested 
facility upgrades necessary to operate at Air Station Barbers Point in 
the Fiscal Year 2019 Presidents Budget.

    Question 10. Given the C-130J's mission support to the Joint 
community, what, if any, opportunities has the Coast Guard assessed 
and/or explored to fund the new hangar requirement from non-DHS 
sources?
    Answer. As a part of the alternatives analysis for any major 
systems acquisition the Coast Guard considers many alternatives 
including re-locating to other government properties, alternative 
funding sources, or leasing facilities. At this time, the Coast Guard 
believes the best location to base C-130Js remains at our pre-existing 
air station.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                      Vice Admiral Karl L. Schultz
    Question 1. Vice Admiral Schultz, I understand that Unified 
Commands are established when the role of the incident commander is 
shared by two or more individuals, each already having authority in a 
different responding agency,--in this case Coast Guard and PHMSA--and 
that they are supposed to help gather information regarding a response 
and make decisions on future operations.
    When is the ``After Action Report'' from the Unified Command for 
the April 2018 ATC incident in Mackinac Straits expected to be 
available, and may I have a copy of the report when it is available.
    Answer. I will have my staff provide you with the results of the 
casualty investigation, once it is complete.

    Question 2. In November 2017, I sent a QFR asking to see the report 
from the Mar/Apr 2017 Coast Guard's R&D Center's Diluted Bitumen Study 
conducted at Ohmsett Lab in New Jersey, to which the answer was that 
report was not yet completed.
    It has now been a year since that test; please provide an update on 
the status of the test and a timeline for the report.
    Answer. The report for the bitumen research conducted at Ohmsett 
Lab was published on April 2, 2018. The study is attached.

    Question 3. During the hearing, there was mention of oil spill 
methods and prototypes being tested in Michigan freshwater in April and 
May 2018. Vice Admiral Schultz mentioned that reports from those tests 
would not be complete until summer of 2019. Why will this report take 
more than a year to complete?
    Answer. These tests are part of a larger oil sands products spill 
response research and development project. Additional research and 
testing is planned as part of this effort, and the results from all of 
the tests will be analyzed and included in a final report at the 
conclusion of the project. The Coast Guard expects to complete this 
project and its report by the summer of 2019.

    Question 4. Vice Admiral Schultz, I understand the Coast Guard is 
looking at buying more light short-range drones for its cutters, as 
well as larger drones. The outgoing Commandant has been quoted saying 
``we are grossly underutilizing DHS drones, because DHS just doesn't 
have enough people to operate them for the prolonged'' and offered the 
suggestion that Coast Guard members could aid DHS and CBP in operating 
the drones they already have. What do you recommend in order to get DHS 
and Coast Guard UAS program up to par with DODs?
    Answer. The USCG and CBP established a DHS Joint Program Office 
(JPO) to manage the training, operations, and employment of the MQ-9 
UAS and associated crews. USCG pilots and sensor operators work side by 
side with CBP to conduct joint land and maritime border operations to 
prevent the flow of illegal narcotics and illegal immigration. The JPO 
is largely modeled after DoD joint operations and is considered a huge 
success in DHS joint operations.
    In FY18 DoD requested $6.97B for drone-related procurement, 
research and development, and system-specific construction. By 
comparison, the Coast Guard requested $7.21B to operate the entire 
Coast Guard and $6.4M for UAS activities.
    Although the Coast Guard UAS program is small in comparison to the 
overall DoD footprint, we recently conducted a successful prototype of 
a small UAS (sUAS) system aboard CGC STRATTON on three different 
patrols.
    The sUAS provided surveillance, situational awareness, and tactical 
Intelligence, Surveillance & Reconnaissance (ISR) over a total of 20+ 
law enforcement cases; assisting the STRATTON with the interdiction of 
illicit contraband in international waters. The Coast Guard recently 
released a request for proposals (RFP) to outfit the entire fleet of 
National Security Cutters with this significant advancement in 
technology/situational awareness. Continued support for this program 
will ensure the Coast Guard maximizes use of UAS technology in the 
future.

    Question 5. How do you see the Coast Guard utilizing autonomy as 
part of its missions and operations in the future?
    Answer. The Coast Guard is continuously exploring ways to leverage 
emerging technology to improve mission performance. Autonomous vehicles 
may present opportunities to enhance performance across several mission 
areas, particularly with regards to maritime domain awareness.
    The Coast Guard is grateful to Congress for the FY 2018 
appropriation, which included $5 million to perform a full assessment 
of available autonomous systems that can be utilized to improve our 
maritime domain awareness, particularly in the Pacific theater.
                               Attachment
                               
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                            Acknowledgements
    RDC is grateful for the cooperation of Enbridge Pipeline who worked 
with the Canadian Association of Petroleum Producers (CAPP) to provide 
oil for testing. In addition, RDC wishes to acknowledge the assistance 
of the Coast Guard ATON/MER Asset Line for providing the DESMI Helix 
skimmer and finally the Bureau of Safety and Environmental 
Enforcement's National Oil Spill Response Research & Renewable Energy 
Test Facility (Ohmsett) for lending the ELASTEC drum skimmer.
                           Executive Summary
    The U.S. Coast Guard (CG) Research and Development Center (RDC) 
drafted this white paper to document a test that evaluated the recovery 
of weathered diluted bitumen in fresh water. In the past, limited 
recovery tests have been performed for response to diluted bitumen in 
salt water, but none have been performed in fresh water to ensure that 
this environment does not cause unique problems.
    RDC collaborated with Enbridge to provide the appropriate oil and 
identified a drum skimmer and a brush skimmer that represent two 
classes of skimmer commonly found in responders' inventories. The 
Bureau of Safety and Environmental Enforcement's National Oil Spill 
Response Research & Renewable Energy Test Facility (Ohmsett) installed 
a separate test tank adjacent to the main Ohmsett test tank and filled 
it with fresh water. Ohmsett conducted the test using the ASTM F2709, 
Standard Test Method for Determining Nameplate Recovery Rate of 
Stationary Oil Skimmer Systems. The oil was weathered to simulate a 
spill lasting over 8 days. The recovery efficiency was never below 70 
percent for either skimmer, although the recovery rates varied somewhat 
due to the skimmer configuration. The data collected during this 
evaluation indicates that with care, standard skimmers do not need 
special modifications to recover diluted bitumen in fresh water, 
especially in the early stages of a spill while the oil is on the 
surface. These typical skimmers need to be monitored closely for 
rotational speed during the early stages to ensure efficiency. A lower 
recovery rate may be acceptable for increased efficiency. More powerful 
pumps may be needed during the later stages of a spill involving this 
type of product as the viscosity increases.
    We recommend that the Coast Guard make this information available 
to oil spill responders through training, conferences and Federal On 
Scene Commander's guidance documents.
                             1 Introduction
    There has been an increase in the movement of products from the 
Canadian Oil Sands in Alberta into the United States. This includes 
shipment by rail and pipeline of diluted bitumen (dilbit), which is a 
crude oil that is composed of bitumen and added diluents. Although the 
characteristics of dilbit are similar to other crude oils, the 
combination of heavy components with a lighter crude or condensate 
raises questions about its behavior when spilled and the best methods 
to use in response to a spill. Earlier research has been done to 
address some of these questions. In the United States, the National 
Academy of Science (NAS) has done some assessment to identify issues 
that need to be addressed during a pipeline spill (NAS 2016). The USCG 
Research & Development Center (RDC) performed an initial assessment and 
identified some outstanding issues for behavior and response (Hansen 
et. al., 2015). Some work on behavior and response to dilbit spills has 
been done by multiple Canadian organizations including Environment and 
Climate Change Canada, Natural Resources Canada and researcher Merv 
Fingas. (Fingas, 2015; Fieldhouse et. al. 2016; Zhou, 2015).
    Kinder-Morgan contracted Witt O'Briens and Polaris to determine 
behavior and perform initial evaluation for the response options of 
mechanical recovery, dispersants, and in-situ burning for dilbit spills 
in salt water. (Taylor et. al., 2014 and Witt/O'Briens et. al., 2013). 
The two samples tested did not sink during a two-week test in 
artificial salt water. Other results from this test indicate that 
dilbit may be dispersible shortly after the oil is spilled, and 
standard mechanical cleanup equipment can be used in the initial stages 
of a spill. In-situ burning may also be useful during the early stages 
of a spill of this type as well. However, this work involving response 
methods did not address specific issues of spills in fresh water.
    All of the efforts described above, occurred after 2010 when a 
large amount of diluted bitumen escaped from a pipeline into the 
Kalamazoo River (EPA, 2016). Following that spill, there were concerns 
about what worked and what did not for response, as well as questions 
about where the oil ended up.
1.1 Objective
    The primary objective of this effort was to investigate the ability 
to recover dilbit spilled in fresh water using two different oleophilic 
recovery systems while controlling and monitoring the weathering of the 
dilbit. The RDC contracted with the Bureau of Safety and Environmental 
Enforcement's (BSEE) National Oil Spill Response Research & Renewable 
Energy Test Facility (Ohmsett) to conduct these skimmer tests. The two 
skimmers used in the tests were the USCG Helix Dual-DOP skimmer and an 
ELASTEC American Marine TDS-118G drum skimmer. Through a Cooperative 
Research and Development Agreement (CRADA) with the RDC, Enbridge 
Pipeline arranged to get some Cold Lake Winter Blend (CLWB) for the 
Ohmsett tests. Before the test, the RDC believed that the oil 
properties, at a currently unknown degree of weathering, may become too 
viscous and/or cohesive to recover and transport using mechanical 
recovery.
1.2 Background
    Previous to this RDC effort, limited data was collected for 
recovery options of oil sand products. Table 1, below, summarizes the 
data collected in Canadian tests for three different brush skimmers 
during temperate summer weather in Gainsford, Alberta, Canada (Taylor 
et al., 2014). The participants conducted recovery tests on six of the 
ten days that the oil was in the salt water test tanks. There was a 
wide range of data for the water content, rate of oil recovery and 
percent (%) of oil content in the collection cube after decanting.
    There was not adequate discussion to determine the cause for such a 
wide range of data. The conclusions in that report were:

  <bullet> No performance shortcomings were observed in the current 
        inventory of recovery equipment available to Trans Mountain 
        Pipeline ULC (TMPL) and its contractors;

  <bullet> The more viscous oil encountered on three of the days caused 
        no skimmer malfunctions including stalls, seizures, or poor 
        recovery;

  <bullet> Operational adjustments to compensate for increased dilbit 
        viscosity were no different than field adjustments made to 
        equipment during actual spill events for most types of oils;

  <bullet> This particular dilbit behaved similarly to any other crude 
        oil that the participating spill response professionals had 
        experienced in the past.

    The Coast Guard's interest was in determining if any issues related 
to dilbit recovery were different when fresh water was involved.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Notes
    - Values were for the oil at the beginning of the test and the oil 
came from the common discharge tank. After the modification of the 
test, such that the skimmers were discharging to their own tanks, there 
was a high and low value from the three tanks.
    -- Value is from one tank which had been left for 10 days 
undisturbed.
    <bullet> One tank extrapolated values for May 18 not included in 
range as curve was outlier.
    # Following laboratory analysis, the initial sample jar returned an 
anomalous 91.1 percent water content. The results from a second jar are 
presented here with confidence that this alternate is more 
representative of the product recovered in the test.
                      2 Testing Setup and Results
2.1 Testing
2.1.1 Testing Configuration
    The Ohmsett staff set up a temporary tank in a location called Lake 
Zelman, a secondary containment area adjacent to the main Ohmsett test 
tank. The configuration included a 4-foot deep, 16-foot diameter tank 
(Figure 1, left). Multiple 330-gallon metal blue totes were used for 
recovering the oil collected during the tests. The arrangement included 
a three-way valve and manifold with a 4-inch Cam-lock inlet to permit 
flow to be directed into a ``slop'' tote for initial oil collection 
while the system was stabilized and a ``collect'' tote for oil 
collected during the timed test (Figure 1, right). As mentioned 
earlier, two skimmers were used for these tests, an ELASTEC TDC-118G 
drum skimmer and a Desmi Ro-clean Helix brush skimmer. They were 
powered by two respective hydraulic power packs. These skimmers 
represent two general types normally available in the field during a 
response.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 1. Test area configuration.
2.1.2 Test Oil
    Ohmsett received two deliveries of Cold Lake Winter Blend (CLWB). 
The first delivery was a 5-gallon batch to conduct some preliminary 
weathering trials. The second was a 2,000-gallon batch for the actual 
testing. The initial 5-gallon batch was weathered by placing it into a 
metal tray just below the deck of the Ohmsett test basin to avoid 
direct sunlight. Oil samples were collected on 2 hour intervals during 
the first day, at 4-hours intervals the second day, and then every 24 
hours after 2 days as the rate of evaporation changed. The Ohmsett 
staff measured the density and viscosity of the samples and these 
values were used to set up a schedule for weathering the large batch. 
The staff placed the full amount of test oil (2,000 gallons) into a 
large tank (Figure 2) and a horizontal air sparging system consisting 
of a 10-foot pipe with 20 air holes sized at 1/8 inch. Only two of the 
four 20-inch manholes were opened at the top of this tank. Air was 
initially introduced at 75 pounds per square inch (psi) and 4 cubic 
feet per minute (CFM) and later increased to 100 psi and 7 CFM. Almost 
immediately from the start, the density/weathering data did not match 
the data collected from the preliminary 5-gallons sample. As seen in 
Figure 3, the values for the oil in the large tank (pre-test) were 
lower than that of the small batch in the pan (preliminary). The staff 
installed a second air sparging system with 150 holes sized at 1/16 
inch, however, the weathering data again did not match. The data is not 
reported because there was no change in the viscosity values. Multiple 
weathering attempts using small batches of the oil on trays and in 
totes were also unsuccessfully matched.
    Finally, Ohmsett staff placed small batches in several of the totes 
and installed air sparging systems specifically designed for the totes. 
They were run for several weeks before the higher viscosity levels were 
attained that matched the values for the small batch that weathered 
normally. It appears that the lower temperature in the outdoor tank and 
the limited air exchange with the manholes, reduced the efficiency in 
the forced weathering effort. Values of over 40,000 centipoises (cP) 
were eventually reached.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 2. Large tank for large batch of oil (2,000 gallons).
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Figure 3. Data for preliminary (small batch in pan) and pre-test 
(from larger test batch).
2.2 Test Process
    The testers followed the ASTM Standard F2709, Standard Test Method 
for Determining Nameplate Recovery Rate of Stationary Oil Skimmer 
Systems. This standard recommends a test area at least three times the 
dimensions of the skimmer. This area was slightly reduced for the Desmi 
skimmer, but for the objectives of this test, the area was adequate. 
The general steps followed were:

  (1)  Collect initial data (temperature and oil samples for density, 
        viscosity, etc.).

  (2)  Set rotational speed of skimmer.

  (3)  Place skimmer into test area, preload oil into test area (Figure 
        4, left).

  (4)  Start skimmer and divert first amount into ``slop'' tote. Switch 
        discharge to ``collect' tote and continue until 1 inch of slick 
        is recovered (Figure 4, right). Record time and move tote out 
        for decanting and oil sampling.

  (5)  Perform final sampling and data collection.

  (6)  Switch out skimmers and repeat.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 4. Helix skimmer during oil preload and testing.
2.3 Test Results
    A summary of the test data is shown in Table 2 for each skimmer. 
The last two columns for efficiency and oil recovery rate are plotted 
in Figure 5. The results indicate that efficiency for the first six 
tests were close to 100 percent. This shows that these skimmers 
performed well when the oil was fresh. The Ohmsett staff noted that 
some of the lower numbers for efficiency rate and recovery rate in the 
data suggests that the skimmer parameters may not have been set 
correctly. The ELASTEC skimmer can be adjusted for the rotational speed 
of the drum, and the Helix brushes' rotation can also be adjusted. It 
proved difficult to count the rotations and adjust exactly after the 
drum and brushes were coated with oil. Adjustments could also be made 
for the pumps that move the oil from the collection site into the 
storage container for both skimmers. Getting the recovered oil to flow 
to the pump in both skimmers was problematic starting at viscosities of 
about 14,000 cP, especially for the drum skimmer. In addition, at the 
higher viscosities, a large amount of oil attached on the drum and 
brush during the first few revolutions and the scrapping mechanisms had 
difficulty in clearing the oil for additional oil to attach. At higher 
rotational speeds, this was more visually apparent.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Note: Only full skimmer test results were recorded.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Figure 5. Skimmer recovery rates and efficiency data from tests.
                             3 Conclusions
    This Ohmsett skimmer test added to the limited data on actual 
efficiencies of various skimmers. The results increase the body of 
knowldege from the previous tests in Canada and Ohmsett. When this test 
is compared to the skimmer tests at Ohmsett during ``Ice Month'' (SL 
Ross and MAR 2013), it must be noted that test used a refined product 
called Hydrocal with a viscosity of approximately 1,000 cP. The Ice 
Month tests were conducted with approximately 30 percent ice. The Helix 
skimmer was about 70 percent efficient with recovery rates of 27-42 
gallons per minute (GPM) and the drum skimmer was over 65 percent 
efficient with recovery rates of over 21 GPM, both lower than the 
dilbit tests.
    When the dilbit test is compared to the tests in Canada (Table 1), 
the viscosities were lower due to the higher temperatures. 
Unfortunately, the Canada tests grouped the skimmer performances, so it 
is not possible to pull out specific skimmer performance for comparison 
from the Canadian data.
    The data collected during this skimmer test indicates that with 
care, standard skimmers do not need special modifications to recover 
diluted bitumen in fresh water, particularly in the early stages of a 
spill while the oil is on the surface. While there is a large 
variability, the skimmer performance can be refined for increased 
recovery rate by adjusting the rotation rate of the collection device 
and the collection pump. These types of skimmers need to be monitored 
closely for rotational speed during the early stages of operation. A 
lower recovery rate may be acceptable when traded off for increased 
efficiency. Pumps that are more powerful may be needed during the later 
stages of a spill of this type of material.
                              4 References
    ASTM F2709, Standard Test Method for Determining Nameplate Recovery 
Rate of Stationary Oil Skimmer Systems
    Fieldhouse, Ben, Alaa Alsaafin, Sailly Dave, Caroline Jung, Kevin 
Watson and Robert Faragher, ``Results from Effectiveness Testing of 
Chemical Countermeasures and Sorbent performance on Oil Sands 
Products,'' 2016 AMOP
    Fingas, Merv, Review or Properties and Behavior of Diluted 
Bitumens, 2015 AMOP
    Hansen, Kurt, Mike Sprague, John Joeckel, Mark Rockley, Response to 
Oil Sands Products Assessment CG-D-16-15, September 2015
    MAR, Inc, ``U.S.C/G R&D Center Testing of Oil Sands Products Using 
Skimmers in Fresh Water,'' 2/27/17-5/19/2017.
    National Academies of Sciences, Engineering, and Medicine. 2016. 
Spills of Diluted Bitumen from Pipelines: A Comparative Study of 
Environmental Fate, Effects, and Response. Washington, D.C.: The 
National Academies Press.
    SL Ross Environmental Research Limited (SL Ross) and Mar, Inc, 
``Skimmer tests in Drift Ice: Ice Month 2013 at Ohmsett, prepared for 
Bureau of Safety and Environmental Enforcement,'' Herndon, VA, August 
2013
    Taylor, Elliott, Greg Challenger, Jose Rios, Jim Morris, M.W. 
McCarthy, Colin Brown, ``Dilbit Crude Oil Weathering on Brackish Water: 
meso-scale tests of Behavior and Spill Countermeasures,'' 2014 AMOP, pg 
317-337.
    US Environmental Protection Agency (EPA) 2016, Ralph Dollhopf and 
Jeff Kimble, Federal On-Scene Coordinator Desk Report for the Enbridge 
Line 6b Oil Spill, Marshall, Michigan, April 2016.
    Witt/O'Brian's, Polaris, & WCMRC. (2013). A Study of Fate and 
Behavior of Diluted bitumen Oils on Marine Waters. Gainford, Alberta, 
Canada. Retrieved from http://www.transmountain.com/uploads/papers/
1391734754-astudyoffateandbehav
iourofdilutedbitumenoilsonmarinewater.pdf
    Zhou, John, Heather Dettman and Martin Bundred, ``A Comparative 
Analysis of Environmental Behavior of Diluted Bitumen and Conventional 
Crudes,'' 2015 AMOP.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Tammy Baldwin to 
                      Vice Admiral Karl L. Schultz
    Question 1. Congress provided the Coast Guard $2 million in FY17 
and another $3 million in FY18 for survey and design work for the heavy 
Great Lakes Icebreaker, and I'm concerned that the Coast Guard has been 
slow-walking this project, contrary to congressional intent.
    What is the status of survey and design work for the heavy Great 
Lakes Icebreaker, including the spend plan for funding appropriated in 
FY17 and FY18?
    Answer. The Coast Guard is reviewing existing analyses and 
exploring initiatives to effectively utilize the survey and design 
funding for additional Great Lakes capacity to ensure a balanced and 
informative strategy going forward.
    This includes working towards the development of operational 
requirements to best meet our future icebreaking needs on the Great 
Lakes, as well as evaluating current icebreaking capability, to include 
detailed survey and analysis of existing hull, mechanical, auxiliary, 
and electrical systems on CGC MACKINAW to identify gaps and inform 
possible future hull and system designs

    Question 2. Do you believe that existing Buy American laws and 
domestic content requirements, as they apply to the Coast Guard, are 
beneficial to: (a) U.S. economic and national security; (b) the 
domestic industrial base; and (c) the Coast Guard? If yes, how? If no, 
why not? Please provide answers for each of these three subparts. In 
your view, what is the relationship among these three subparts?
    Answer. Under Federal law, the Coast Guard is required to construct 
and repair all vessels in U.S. shipyards and to ensure that all 
delivered end products include at least 50 percent of domestically 
sourced components and materials.
    Congress has enacted several laws to provide preference for 
domestically sourced end items. The Coast Guard is committed to 
applying these principles under Federal law via our acquisition and 
procurement efforts.
    The Coast Guard complies with all requirements of the Buy American 
Act and all other laws as implemented under the Federal Acquisition 
Regulation.
    The Coast Guard is committed to delivering assets and capabilities 
that best meet mission demands and represent the best value to the 
service and the American people. The Coast Guard will continue to apply 
all tools available under Federal law to accomplish these objectives.

    Question 3. VADM Schultz, based on the Coast Guard's experience and 
your own experience as the commander of the Coast Guard Atlantic Area, 
are you aware of any disciplinary or unit cohesion issues resulting 
from the opening of service to transgender individuals on June 30, 
2016? If so, can you tell me how they have been handled by unit 
leadership?
    Answer. I am not aware of any disciplinary or unit cohesion issues 
resulting from the opening of the CG to transgender individuals.

    Question 4. Admiral Zukunft told the House Appropriations 
Subcommittee on Homeland Security on April 17, 2018, that the Coast 
Guard is committed to the continued service of the 17 transitioned 
Coast Guardsmen. Do you make that same commitment?
    Answer. I will continue to treat Coast Guard personnel with the 
respect and dignity that they deserve. The CG is complying with 
Presidential directions and court orders and I will remained engaged 
with Department of Defense with regard to this issue.

    Question 5. Have you met with any transgender Coast Guardsmen to 
speak with them about their experiences? If not, do I have your 
commitment to do so?
    Answer. I have not had specific meetings with transgender members 
to discuss their experiences.

    Question 6. To the maximum extent practicable, the Coast Guard is 
directed to utilize components that are manufactured in the United 
States when contracting for new vessels. Such components include: 
auxiliary equipment, such as pumps for shipboard services; propulsion 
equipment including engines, reduction gears, and propellers; shipboard 
cranes; and spreaders for shipboard cranes.
    As Commandant, how will you interpret and comply with the below 
language (from the Homeland Security Explanatory Statement to accompany 
the Consolidated Appropriations Act, 2018) regarding congressional 
intent for the Coast Guard to utilize, to the maximum extent 
practicable, U.S. manufactured vessel components?
    Answer. The Coast Guard will continue to incorporate contract 
clauses that mandate compliance with the Buy American Act and the Trade 
Agreements Act, including requirements that end products are:

        manufactured in the United States (or a designated country); 
        and,
        the cost of domestic end products exceeds 50 percent of the 
        cost of all components.

    Question 7. Does the Coast Guard intend to require U.S. 
manufactured components, including those listed in the language, as 
part of future vessel acquisitions, including the Polar and Great Lakes 
icebreakers?
    Answer. In the case of future shipbuilding programs, the Coast 
Guard will continue to incorporate contact clauses that mandate 
compliance with the Buy America Act and the Trade Agreements Act. To 
that end, at least 50 percent of the cost of all components of the end 
product are required to be domestically sourced.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                    to Vice Admiral Karl L. Schultz
    Question 1. During your confirmation hearing you mention how 
spending caps under the Budget Control Act of 2011 resulted in under 
resourcing of recruiting efforts, negatively impacting your ability to 
recruit and retain top talent for the Coast Guard. What does the Coast 
Guard require from Congress, including funding, to meet its man-power 
needs?
    Answer. The men and women of the Coast Guard are our Service's most 
valuable asset. The FY19 President's Budget request modestly grows the 
Coast Guard workforce by providing critical crews and support personnel 
to operate and sustain new assets delivered via our acquisition 
programs. However, the budget does not provide the capacity to address 
workforce gaps created by personnel reductions under Budget Control Act 
caps or invest in workforce capabilities, such as cyber security.

    Question 2. Are the requirements referenced in Question 1 reflected 
in the President's 2019 Budget Request?
    Answer. The FY19 President's Budget grows the Coast Guard by 109 
positions.

    Question 3. During your confirmation hearing you told the Committee 
that the Coast Guard, in collaboration with the RAND Corporation, is 
conducting a women's retention study. Per Senator Wicker's request 
during hearing, please provide the deadline for the completion of the 
study, and also provide a copy of any final output to my office.
    Answer. The Coast Guard (CG) partnered with RAND Corporation to 
identify career and progression barriers possibly unique to CG active 
duty women. The study includes a combination of data gathering, cohort 
interviews, and comparative analysis (e.g., Department of Defense 
(DoD), private industry, & CG men).
    To date, RAND has undertaken the following initiatives:

  <bullet> Literature review to examine previous studies conducted by 
        the CG and other sources.

  <bullet> Trend validation of CG workforce data to begin forecasting 
        and analysis.

  <bullet> Benchmarking CG data against the DoD and/or the private 
        sector workforce.

  <bullet> Exploratory focus groups that interview active duty men and 
        women.

    In the coming months RAND will also conduct the following:

  <bullet> Statistical analysis of the gathered data.

  <bullet> Consolidate recommendations to address identified retention 
        barriers.

    The CG anticipates a final written product from RAND Corporation 
early in calendar year 2019.

                                  [all]

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.
     
</pre></body></html>
